<html>
<title> - HOW EFFECTIVELY ARE FEDERAL, STATE AND LOCAL GOVERNMENTS WORKING TOGETHER TO PREPARE FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
   HOW EFFECTIVELY ARE FEDERAL, STATE AND LOCAL GOVERNMENTS WORKING 
    TOGETHER TO PREPARE FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK
=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY,
                        FINANCIAL MANAGEMENT AND
                      INTERGOVERNMENTAL RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 1, 2002

                               __________

                           Serial No. 107-120

                               __________

       Printed for the use of the Committee on Government Reform






  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                               ____________


                       U. S. GOVERNMENT PRINTING OFFICE
82-307                          WASHINGTON : 2002
___________________________________________________________________________

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

    Subcommittee on Government Efficiency, Financial Management and 
                      Intergovernmental Relations

                   STEPHEN HORN, California, Chairman
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
DAN MILLER, Florida                  MAJOR R. OWENS, New York
DOUG OSE, California                 PAUL E. KANJORSKI, Pennsylvania
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                  Bonnie Heald, Deputy Staff Director
                        Justin Paulhamus, Clerk
           David McMillen, Minority Professional Staff Member








                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 1, 2002....................................     1
Statement of:
    Gilbert, Wendell H., Tennessee Department of Veterans 
      Affairs, deputy to the Governor for Homeland Security; 
      Kenneth Burris, Regional Director, Federal Emergency 
      Management Agency; Philip Thomas, Special Agent in Charge, 
      Memphis field office, Federal Bureau of Investigation; 
      Jayetta Z. Hecker, Director, Physical Infrastructure 
      Issues, U.S. General Accounting Office; Stanley H. 
      Copeland, director, planning and training, Tennessee 
      Emergency Management Agency; Adjutant General Jackie Wood, 
      Tennessee National Guard; and Allen Craig, M.D, State 
      epidemiologist, director of Communicable and Environmental 
      Disease Services...........................................    19
    Purcell, Bill, mayor, city of Nashville, TN..................    12
    Schaffner, William, M.D., chairman, Department of Preventive 
      Medicine, professor of infectious diseases, Vanderbilt 
      University School of Medicine; James E. Thacker, director, 
      mayor's Office of Emergency Management, Nashville, TN; 
      Kenneth H. Turner, chief, Nashville Police Department; 
      Stephen D. Halford, director and chief, Nashville Fire 
      Department; Ian David Jones, M.D., Vanderbilt University 
      Medical Center; James E. Carver, director, Tennessee Valley 
      Authority Police; and Jim Kulesz, program manager, Systems 
      Engineering and Technology, Oak Ridge National Laboratory..   106
Letters, statements, etc., submitted for the record by:
    Burris, Kenneth, Regional Director, Federal Emergency 
      Management Agency, prepared statement of...................    29
    Carver, James E., director, Tennessee Valley Authority 
      Police, prepared statement of..............................   138
    Clement, Hon. Bob, a Representative in Congress from the 
      State of Tennessee:
        Letter dated February 28, 2002...........................    18
        Prepared statement of....................................     6
    Copeland, Stanley H., director, planning and training, 
      Tennessee Emergency Management Agency, prepared statement 
      of.........................................................    80
    Craig, Allen, M.D, State epidemiologist, director of 
      Communicable and Environmental Disease Services, prepared 
      statement of...............................................    96
    Gilbert, Wendell H., Tennessee Department of Veterans 
      Affairs, deputy to the Governor for Homeland Security, 
      prepared statement of......................................    22
    Halford, Stephen D., director and chief, Nashville Fire 
      Department, prepared statement of..........................   122
    Hecker, Jayetta Z., Director, Physical Infrastructure Issues, 
      U.S. General Accounting Office, prepared statement of......    52
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     3
    Jones, Ian David, M.D., Vanderbilt University Medical Center, 
      prepared statement of......................................   128
    Kulesz, Jim, program manager, Systems Engineering and 
      Technology, Oak Ridge National Laboratory, prepared 
      statement of...............................................   148
    Purcell, Bill, mayor, city of Nashville, TN, prepared 
      statement of...............................................    15
    Schaffner, William, M.D., chairman, Department of Preventive 
      Medicine, professor of infectious diseases, Vanderbilt 
      University School of Medicine, prepared statement of.......   109
    Thacker, James E., director, mayor's Office of Emergency 
      Management, Nashville, TN, prepared statement of...........   114
    Thomas, Philip, Special Agent in Charge, Memphis field 
      office, Federal Bureau of Investigation, prepared statement 
      of.........................................................    38
    Turner, Kenneth H., chief, Nashville Police Department, 
      prepared statement of......................................   118
    Wood, Adjutant General Jackie, Tennessee National Guard, 
      prepared statement of......................................    87


   HOW EFFECTIVELY ARE FEDERAL, STATE AND LOCAL GOVERNMENTS WORKING 
    TOGETHER TO PREPARE FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK

                              ----------                              


                         FRIDAY, MARCH 1, 2002

                  House of Representatives,
  Subcommittee on Government Efficiency, Financial 
        Management and Intergovernmental Relations,
                            Committee on Government Reform,
                                                     Nashville, TN.
    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
the Wyatt Center Rotunda, Vanderbilt University, Nashville, TN, 
Hon. (chairman of the subcommittee) presiding.
    Present: Representatives Horn, Wamp, Clement and Bryant.
    Staff present: J. Russell George, staff director and chief 
counsel; Bonnie Heald, deputy staff director; and Justin 
Paulhamus, clerk.
    Mr. Horn. A quorum being present, the hearing of the 
Subcommittee on Government Efficiency, Financial Management and 
Intergovernmental Relations will come to order.
    On September 11, 2001, the world witnessed the most 
devastating attacks ever committed on the soil of the United 
States. Despite the damage and enormous loss of life, the 
attacks failed to cripple this Nation. To the contrary, 
Americans have never been more united in their fundamental 
belief in freedom and their willingness to protect that 
freedom.
    The diabolical nature of these attacks and then the deadly 
release of anthrax sent a loud and clear message to all 
Americans: We must be prepared for the unexpected. We must have 
the mechanisms in place to protect this Nation and its people 
from further attempts to cause massive destruction.
    The aftermath of September 11th clearly demonstrated the 
need for adequate communication systems and rapid deployment of 
well-trained emergency personnel. Yet despite billions of 
dollars in spending on Federal emergency programs, there remain 
serious doubts as to whether the Nation is equipped to handle a 
massive chemical biological or nuclear attack.
    Today, the subcommittee will examine how effectively 
Federal, State and local agencies are working together to 
prepare for such emergencies. We want those who live in the 
great State of Tennessee and the good people of Nashville to 
know that they can rely on the system, should the need arise.
    We are fortunate to have witnesses today whose valuable 
experience and insight will help the subcommittee better 
understand the needs of those on the frontlines. We want to 
hear about their capabilities and their challenges, and we want 
to know what the Federal Government can do to help.
    We welcome all of our witnesses and look forward to their 
testimony.
    I'm delighted that Bob Clement, who is the U.S. 
Representative for Nashville, will be our host. Ed Bryant and 
Zack Wamp are the U.S. Representatives in Tennessee and without 
objection all of these Members will be members of the 
subcommittee for the purposes of this hearing.
    I now yield the time for an opening statement by Mr. 
Clement who is highly respected in Washington and here. I am 
glad to have any statement that he would like to put in the 
record and any other comments that he might want to make.
    [The prepared statement of Hon. Stephen Horn follows:]
    [GRAPHIC] [TIFF OMITTED] 82307.001
    
    Mr. Clement. Thank you, Mr. Chairman. I ask that my 
statement be accepted into the record as if read.
    Mr. Horn. Without objection, it will be exactly that way.
    Mr. Clement. Mr. Chairman, it is great having you in 
Nashville, TN, Country Music, U.S.A. I might say about Chairman 
Horn, I have known him a long time and he is a good, effective 
Member of Congress, as a lot of you know, from the great State 
of California. Congressman Horn has distinguished himself in 
many ways, but he is also a former college president like 
myself. We have three former college presidents as members of 
the U.S. House of Representatives now, so when we see each one 
another in the hallway, naturally we refer to one another as 
Mr. President. [Laughter.]
    I also want to thank Chancellor Ghee and Chancellor 
Jacobson, as well as Mel Bass, being here at Vanderbilt 
University, such a great university and internationally 
renowned. My colleagues, Congressman Zack Wamp from East 
Tennessee, from Chattanooga, and Congressman Ed Bryant from 
West Tennessee. So the entire State of Tennessee is well 
represented today. And, Mayor Purcell, good to see you. I know 
you are going to be our opening speaker today. It is great to 
be here in your city, as well as mine, for this most important 
hearing.
    It is an important hearing because this hearing has to do 
with chemical, biological and nuclear attacks and what is our 
preparation, what are we doing, or what are we failing to do in 
order to ensure the people of Tennessee and this great country 
are protected. A lot of these variables are uncertainties for 
the future because we really do not know what to expect. We 
know with chemical and biological it could impact us and we do 
not even know what has happened until after the fact. That is 
why we need knowledgeable people and people that are truly 
experts to advise and counsel us. You are going to hear from 
many of them today from all over the State of Tennessee to 
bring us up to date on what we are doing. Because we at the 
Federal level want to do everything humanly possible to 
accomplish these goals and objectives. We want to make sure 
that the Federal Government is doing its part. Are we or are we 
not working together? Do we or do we not have the authority 
that is needed at the Federal, state and local level to handle 
emergencies if they happen. Do we have enough trained, educated 
people in place in order to get the job done? And also, what 
about turf fights? That can always happen at the Federal, State 
or local levels. Rather than helping other agencies get the job 
done, we become obstructionists. We don't want that to happen.
    A lot of you also know that the Bush administration has 
proposed a budget of $37 billion. We are now spending $19 
billion on homeland security. So if we are going to have that 
big of a jump, are we going to spend those taxpayer dollars 
wisely? We need to ask that question because we know that in 
the cold war we had a massive buildup in our defense capability 
during the cold war and not all of those dollars were spent 
wisely. The same thing could happen with homeland security if 
we let it happen. That is why these investigatory hearings that 
Chairman Horn is having, not only in Tennessee--and I am proud 
to be able to say the first congressional field hearing 
anywhere in the United States is in Tennessee, because we are 
strategically important, are we not?
    Mr. Horn. Absolutely.
    Mr. Clement. Because we border more States, as you know, 
Mr. Chairman, than any other State in the United States. We 
have six interstate highway systems going throughout our State. 
We have got a waterway system, you know, the Tennessee River 
system, the Cumberland and the Mississippi River system, we 
have got TVA, we have got Oak Ridge. We have all of this in 
Tennessee. If we have got all of these assets here, we have got 
to make sure that we are doing everything we possibly can for 
the sake of our people in Tennessee, and not just for 
Tennessee, but for this great country.
    Thank you, Mr. Chairman.
    Mr. Horn. Thank you.
    [The prepared statement of Hon. Bob Clement follows:]
    [GRAPHIC] [TIFF OMITTED] 82307.002
    
    [GRAPHIC] [TIFF OMITTED] 82307.003
    
    [GRAPHIC] [TIFF OMITTED] 82307.004
    
    Mr. Horn. Now, Mr. Bryant, if you wish to have an opening 
statement we would be glad to have it.
    Mr. Bryant. Thank you, Mr. Chairman. I used to not speak 
very much. That is somewhat unusual for a lawyer, but after 
being in Washington, I learned that you never turn down an 
opportunity to speak before a crowd of TV cameras and a crowd 
of people. Mr. Chairman, I will take just a short-time here. I 
know we have some outstanding witnesses to listen to today and 
there is a great deal to be learned from them as opposed to 
what we might have to say in terms of knowledge.
    I do want to welcome you to Tennessee. You have been here 
before. It is a great State, as Bob Clement says, and I know 
Zack Wamp agrees. We may have some disputes among ourselves as 
to what part of the State is most beautiful, but I can tell 
you, we probably have the main target in West Tennessee for 
possible terrorism, and that is Graceland. [Laughter.]
    That goes to the heart of Tennessee and our Nation as a 
matter of fact. But Tennessee and Nashville is especially a 
hospitable place and I want to thank all of the folks that have 
made it out today, but especially our great mayor of Nashville, 
Mayor Bill Purcell, who will have some comments here in a few 
minutes. I want to tell you, Nashville, I think, is a good 
choice because it is so representative of the South. We have 
got so many things here, as we have across the South, that are 
important to us, but also important to a would-be terrorist. So 
I think this is a good area to hold a hearing, and what you 
hear today will be consistent with, I suspect, the rest of the 
South and probably the Nation as a whole.
    Our job in Washington--and one of the things that we are 
trying to learn today from these experts down here, the city, 
county, State folks, the fire departments, the police 
departments, the first-responders, those folks; we need to 
learn how we can best help them. We do a lot in Washington, 
mainly surrounding money. Money is really what drives 
Washington. How we spend that money is so important in 
responding to this problem. In looking over the statements, I 
can give you the preview that what they're going to tell us is 
how we construct this manner of distributing Federal money to 
help the State's money and the local money. This is going to be 
the key to our success in battling--in preparing for potential 
counter-terrorism.
    Also, I will tell you, as I wind down my remarks, that 
coordination is so important among the Federal folks, the State 
folks and the local folks that, as Bob alluded to, the turf 
battles that sometimes come up. That is going to be very 
important, as well as coordinating the efforts between the 
people who are out there trying to prevent these types of 
actions happening, as well as coordinating with the folks that 
are out there who are responding when bad things do happen. 
Through acts of terrorism we see and we learned very clearly 
from September 11th that it clearly overlaps very quickly. We 
do not have time in some cases to sit down and say what do we 
do. So it is going to take coordination among the State, 
Federal and local authorities, as well as among the people out 
there already in those positions who prevent these things from 
happening, as well as who will respond, so there is not any 
overlapping and we can be most effective.
    I conclude by telling you that my goal in all of this would 
be, when I go out to my town meetings and talk to people, that 
I do not sound silly when I tell them that I want them to live 
a normal life, yet do it with vigilance. Sometimes that sounds 
like a mixed message out there, I am telling them two different 
things. I think we all understand that what we are about here 
is trying to find a way that we can all work together so we can 
get back to a normal life in America, as much as we can, but 
knowing always that we are going to have to be vigilant from 
now--from this day forward.
    Again, thank you, Mr. Chairman, for hosting this hearing. I 
yield back the balance of my time.
    Mr. Horn. And now we will have the gentleman from the other 
part of Tennessee, Mr. Wamp, for an opening statement.
    Mr. Wamp. Thank you, Mr. Chairman. I, too, want to thank 
Chairman Horn for choosing Nashville and our State for the 
first field hearing on this most important topic, and 
Congressman Clement for his leadership and his fairness. I have 
thoroughly enjoyed the 7\1/2\ years I have had an opportunity 
to work with you, Congressman. We have a very good working 
relationship and put the interest of our State ahead of any 
other interest together. And, of course, I admire Congressman 
Bryant so well. You have got a diversity of experiences here 
among the members and our respective committee assignments that 
I think is helpful, and certainly an excellent slate of 
witnesses.
    Mayor Purcell, I admire you so much. Thank you for being 
with us and for hosting us. To our friends here at Vanderbilt 
University as well, thank you.
    A friend of mine named Oz Guinnes told me not too long ago 
that we need to remember that the power to convene is greater 
than the power to legislate. That is a profound thought. If you 
are a Member of Congress and you recognize that sometimes you 
should use your positions to bring people together for a common 
cause, not just what bills can we pass to somehow legislate our 
way out of the problems that we face. Often times you cannot 
legislate your way out of problems, but we can bring people 
together to talk about solutions that need to be pursued at 
every level of government, private and public sectors. That is 
why we are here today.
    I am also here today, because we now know what we have 
always suspected, and that is, reality is more horrible than 
fiction can ever be. We saw that on September 11th, and we 
actually saw it in other ways following September 11th with the 
anthrax scare. It has awakened a new mindset in our country.
    I also thought on the way over here of 50 years ago when a 
famous Tennessee U.S. Senator named Estes Kefauver was holding 
field hearings all across America to try to root out crime and 
stop the growth of organized crime in our country. History 
repeats itself as we begin these field hearings across America 
to deal with terrorism, which is crime of the worst order in 
the world today. It is a generation call to courage that we all 
face to coordinate, work together, communicate and be brave 
like never before.
    I do come from East Tennessee where we are rich in what 
these professionals would call target assets for terrorism. 
When you think of Oak Ridge, as Congressman Clement said, or 
the TVA nuclear facilities, or even the hydropower system in 
abundant watersheds in east Tennessee where we have numerous 
dams that could be targeted. We have, though, I think fairly--
it would be fair to say that we have made great preparation in 
the past on those assets because the Federal Government has 
been so involved in East Tennessee with our security. So I come 
today to learn more about and help us all pursue solutions to 
biological and chemical threats because what briefings I've had 
tell me that the biological and chemical threats are actually 
much greater than the nuclear threats, and that the damage that 
could be inflicted from biological and chemical terrorism is 
much greater than even nuclear terrorism. I think we need to 
focus in on these unknown areas, which have not been focused on 
enough in recent years. I also want to open by saying I do not 
think we can overdo this. We cannot overemphasize the 
criticality of the issues that are before us today. We could 
meet like this every week and have the best experts we could 
summon and we still would not do enough because this is so 
critical and the timing is so critical.
    There are a few lessons learned, even in a micro sense from 
the anthrax situation that the Congress itself faced in just 
how to prepare--not how to totally prevent it from happening, 
because that is impossible to totally prevent it from 
happening. We can help prevent it from happening, but we cannot 
totally eliminate it. What we can do is prepare for how we 
respond better to this incident. Terrorism will never bring 
this country to its knees. It will not. It will hurt us if it 
happens again, but how we respond is what we are here today to 
address. We have got to do better to prepare for the response. 
I thank Senator Frist, as much or more than any person in our 
State, for the leadership that he has demonstrated in preparing 
our public health infrastructure and bringing about legislation 
for bioterrorism responses at every level because we need his 
kind of expertise and leadership in Washington more today than 
at any time in the history of our country.
    So I am here very encouraged, but also very thirsty to 
learn and to cooperate and to participate in a most important 
process for the good of not just the United States of America, 
but the entire free world. I thank our panel and look forward 
to a very healthy process of working together in the future. 
Thank you, Mr. Chairman.
    Mr. Horn. Thank you.
    The colleague from Nashville has spoken about college 
presidents and we are on a college campus. I should say that 
there was a third member, and that was Ray Thornton, the 
president of the University of Arkansas and Arkansas State 
University. Then he decided to run for Congress, and the paper 
in the town said Thornton goes to Washington in big World War 
II type. An old timer was just crushed because he liked Ray so 
much, and he came over to tell Ray--he said ``Well, Ray, why 
are you leaving us? You live in that house up there we give you 
that looks like Mount Vernon and you make as much as a Member 
of Congress, why are you leaving us?'' And he said, ``I want to 
get away from politics.'' [Laughter.]
    All university types will understand what I am saying.
    Mr. Clement. That is right.
    Mr. Horn. OK, we will now have--we will not swear in the 
Mayor because we will have him with a greeting here. We are 
delighted to have the Honorable Bill Purcell, mayor, city of 
Nashville.

    STATEMENT OF BILL PURCELL, MAYOR, CITY OF NASHVILLE, TN

    Mayor Purcell. Thank you, Mr. Chairman. To Chairman Horn 
and my Congressman, our Congressman, Bob Clement, with whom we 
have an outstanding relationship--a collaborative relationship 
to Congressman Wamp, who I know has that same relationship with 
the new mayor of Chattanooga, Bob Corker, as well as the mayor 
and officials of Oak Ridge. That area is so critical to this 
discussion today. And to Congressman Ed Bryant, who will soon 
after the elections this fall--I am sure after the elections 
this fall will be representing a portion of Davidson County, 
and as a result of which, I know we will see even more of in 
the months and years ahead.
    Mr. Chairman, let me first take this opportunity on behalf 
of all the people of Nashville to thank you and the 
Subcommittee on Governmental Efficiency, Financial Management 
and Intergovernmental Relations here to Nashville for this 
hearing on the efforts of local and State governments to 
prepare for terrorist attacks.
    Your interest in bringing these hearings here into the 
heartland of America shows a welcome appreciation for the 
challenges that local governments face in the wake of the 
terrorist attacks of September 11, 2001. These challenges were 
spelled out in a survey issued in January by the U.S. 
Conference of Mayors. The survey of 200 cities finds that 
cities across the country expect to spend more than an 
additional $2.6 billion on security between September 11, 2001 
and the end of this calendar year.
    On September 11th, the city of New York and Washington, DC, 
came under a foreign terrorist attack unprecedented in American 
history. Although Nashville did not come under attack, all 
departments of the metropolitan government, many of them 
represented here today, immediately began preparations under 
our comprehensive emergency management plan.
    Today you will hear from the leaders of our State and local 
homeland security. General Gilbert, who has done an excellent 
job--an outstanding job in coordinating between State and local 
officials across this State and represented our administration 
well here, and I believe in Washington as well. Since September 
11th, we have all been engaged in the task of assuring the 
public safety of our citizens and assessing our preparedness 
for potential emergencies and crises.
    Within the week after the attack, our Deputy Mayor Bill 
Phillips convened a meeting of the Public Safety Department 
directors to assess Metro's initial response and to determine 
what additional actions by the various departments of Metro 
Government were under consideration or were appropriate.
    After a comprehensive review of relevant emergency plans 
regarding the terrorist attack, it was concluded that the 
government of Nashville and Davidson County had been and were 
well prepared to address terrorist attacks before the events of 
September 11th, and in subsequent weeks all departments 
demonstrated an even improved ability to respond to the 
terrorist challenge. This is a protocol that obviously played 
out in cities, large and small, all across America in the weeks 
following. Our review of our preparedness was released November 
1st. The report concluded, ``Based on its prior level of 
preparedness, its response to a devastating tornado strike, its 
high marks by Federal officials on a chemical disaster exercise 
and additional preparedness actions taken subsequent to the 
September 11th attacks, it clearly appears that Metro 
government is indeed well prepared to respond to the threat of 
terrorism.''
    A part of that report that is critical for me to thank you 
and other Members of the Congress for was the extent to which 
the Federal Government had assisted local governments in the 
months and years preceding that attack to review our level of 
preparedness and actually cause exercises to occur and then 
rank and rate those exercises. That was an enormous benefit to 
us and our report concluded that was one of the reasons that we 
were as prepared as we were, that early Federal support months 
and years before the attacks in New York.
    This report also highlights the things we have learned 
since that time, how we can better prepare for the future 
includes recommendations for improving our readiness. Some of 
these recommendations have already been addressed. For example, 
after increased threats of bioterrorism became apparent, Metro 
issued guidelines for receiving anthrax threats. These 
guidelines have been shared throughout the government with 
businesses and posted generally on the Internet.
    Since that time, we have also taken further steps to 
strengthen our preparedness. At the end of last year our Metro 
Council approved $2 million in funding for the construction of 
a temporary backup training center for E-911. An additional 
$4.2 million is now available for the construction of a new 
police precinct. These were actions that were planned before 
the terrorist attacks, but they reflect our resolve to protect 
the safety of our citizens.
    Like most jurisdictions, we have also assumed additional 
costs during this time. We were honored this week by the 
Department of Defense because the city of Nashville moved 
quickly to be sure that all of our employees who might be 
called to serve would find that neither their pay nor their 
benefits were in any way impeded. Now this is something the 
Federal Government has been a leader in, but we attempted, as a 
local jurisdiction, to be a leader as well and show other 
employers, private as well as public, that this is something we 
can and must do. This, however, comes at a cost.
    When the Nation's mayors met with President Bush in 
January--which was an extremely successful meeting from our 
perspective--he told us that he planned to increase the funding 
for homeland security for State and local governments. The 
President made good on that commitment in his budget, including 
an additional $3.5 billion within that larger amount of money 
that Congressman Clement talked about a few moments ago for 
State and local government preparedness efforts. You will hear 
from Chief Halford, our police chief, Emmett Turner, Jim 
Thacker, director of Nashville's Office of Emergency Management 
on our response and preparations. With your assistance, I am 
confident that we will both win the war against terrorism and 
strengthen our Nation and community.
    Again, thank you Chairman Horn for your leadership, for 
making this trip. I suppose, it is indirectly, between your 
district and your service in Washington, but it was a long trip 
for you and we greatly appreciate your work in convening this 
meeting here. We welcome your interest and we are ready as a 
city to discuss these important matters with you and the other 
members of the subcommittee. Thank you very, very much.
    [The prepared statement of Mr. Purcell follows:]
    [GRAPHIC] [TIFF OMITTED] 82307.005
    
    [GRAPHIC] [TIFF OMITTED] 82307.006
    
    Mr. Horn. Well thank you very much for your graciousness 
and your hospitality, we appreciate it. Mayor, I think you are 
going to be able to sit with us for awhile, if you have time? 
If you do not, I know you are busy.
    Mayor Purcell. Well actually I will be able to be with you 
for a time. Again, my department heads are well represented 
here. Today is also, I might add, Mr. Chairman, since you gave 
me the opportunity, Read Across America Day. We are celebrating 
Dr. Seuss' birthday and the children of Nashville are reading 
all across this city, and then hopefully we will be reading 
tomorrow the results of this hearing as well. Thank you, Mr. 
Chairman.
    Mr. Horn. Thank you.
    We now have panel one. They are in place, and since this is 
an investigatory committee, if you would, take the oath.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that all seven have taken the 
oath.
    Mr. Clement. Mr. Chairman, could I submit this letter for 
the record from Senator Frist, who could not be here today 
because of a conflict? One statement he made in the letter, I 
think is real appropriate. It is not that we are unprepared for 
the threat concerning bioterrorism, rather we are under-
prepared. I think that is something that we need to focus upon. 
And then also, I appreciate the representatives of Senator Fred 
Thompson being here today as well.
    Mr. Horn. And do you want those in the record?
    Mr. Clement. Yes.
    Mr. Horn. Without objection, so ordered.
    We will now go to the honorable Wendell H. Gilbert, the 
Tennessee Department of Veterans Affairs and Deputy to the 
Governor for Homeland Security. We are glad to have you here, 
Mr. Gilbert.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 82307.007
    
   STATEMENTS OF WENDELL H. GILBERT, TENNESSEE DEPARTMENT OF 
VETERANS AFFAIRS, DEPUTY TO THE GOVERNOR FOR HOMELAND SECURITY; 
KENNETH BURRIS, REGIONAL DIRECTOR, FEDERAL EMERGENCY MANAGEMENT 
 AGENCY; PHILIP THOMAS, SPECIAL AGENT IN CHARGE, MEMPHIS FIELD 
  OFFICE, FEDERAL BUREAU OF INVESTIGATION; JAYETTA Z. HECKER, 
    DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES, U.S. GENERAL 
ACCOUNTING OFFICE; STANLEY H. COPELAND, DIRECTOR, PLANNING AND 
   TRAINING, TENNESSEE EMERGENCY MANAGEMENT AGENCY; ADJUTANT 
GENERAL JACKIE WOOD, TENNESSEE NATIONAL GUARD; AND ALLEN CRAIG, 
    M.D, STATE EPIDEMIOLOGIST, DIRECTOR OF COMMUNICABLE AND 
                 ENVIRONMENTAL DISEASE SERVICES

    Mr. Gilbert. Thank you, Mr. Chairman, and members of the 
committee. Mr. Chairman, I am a little bit intimidated here 
this morning because Congressman Bryant is my Congressman and 
he tends to tell stories about me, stories that are not true. 
Mr. Chairman, would you make sure that he exercises some 
restraint this morning? [Laugher.]
    I am currently serving as deputy to Governor Sunquist----
    Mr. Bryant. General Gilbert, could I just make sure that 
you understand you are under oath. Laughter.]
    Mr. Gilbert. Thank you, Congressman, I had forgotten that. 
[Laughter.]
    Mr. Gilbert. I currently serve as deputy to the Governor 
for Homeland Security and I am also commissioner of Veteran 
Affairs. Those of you in uniform know you usually have a job 
description in the Army that says other duties as assigned, and 
the Governor has exercised that particular clause in my job 
description, I guess.
    The Governor has also appointed a Council for Homeland 
Security, which is made up of those senior members of the State 
government who would have a part to play in this mission, and 
several of the council members are here today. The council has 
worked diligently to develop a supplemental budget for this 
year and also a budget for next year, items that we feel are 
essential to be plussed up. Our dilemma is that the State of 
Tennessee--it appears unless some new revenue is found, will be 
in the hole about $350 million in July and for the following 
year about $800 million.
    Many of the departments who are involved in this mission in 
State government have funding that we call over-appropriation. 
The Governor realizing that we were going to have a shortfall 
began to reduce State budgets several months ago. So some of 
the departments that are involved in this mission have an over-
appropriation. For example, the Department of Health and 
Agriculture. And they have now been authorized by the Governor 
to spend some of that money on those vital projects relating to 
homeland security. There are several departments that do not 
have an over-appropriation, including mine and some that are 
represented here, the National Guard and TEMA does not have an 
over-appropriation. So that is the reason I have come forward 
to ask for a supplemental from the General Assembly and that is 
before them at this time.
    What we did in the Council for Homeland Security was to 
establish priority 1 items and priority 2 items. We are only 
asking now for priority 1 items. Priority 1 items are those 
things we think are absolutely essential to this mission. We 
developed a priority 2 category in the event--and I pray that 
this will not occur, but if a threat got more serious, then we 
would already know what those other improvements are.
    We are very encouraged by the President's 2003 budget. I 
recognize that there is a need to get funding down to our 
first-responders on the local level. We also hope that some of 
that funding can also come to State governments, because we 
recognize that we are not the only State in the Nation that has 
serious budget problems.
    I will tell you that Governor Sunquist is very much hands-
on on this subject, and I have received very, very strong 
support from all the members of our council. They always 
respond, they always do what I ask and they always participate 
in a very meaningful way.
    I do recognize that one major problem that needs to be 
addressed is intelligence at the Federal level. I would urge 
the committee to do everything it can to enhance the 
intelligence capability of this great Nation, especially 
vertical intelligence, so that information is analyzed quickly 
and sent all the way down to where the rubber meets the road. 
That, I think, needs to be plussed up.
    Mr. Chairman, you asked me to answer two specific 
questions. The first one is: What is the mechanism for 
disseminating information from your office to the local 
officials? Our Office of Homeland Security provides homeland 
security bulletins. We have already put out four of those. The 
bulletins contain a variety of information. Early on, we put 
out a bulletin that explained all about anthrax. A biological 
threat is something that is fearful. People are afraid of that, 
and we feel that if they know more about biological threats it 
will take some of the fear away. For example, anthrax is not 
contagious from one person to another.
    Also, the Governor has hosted two--we are planning a third 
conference call with all county executives, all mayors, all 
police chiefs, all sheriffs and all emergency management 
personnel across the State. We found those to be particularly 
helpful. In fact, we are planning one this month and the 
Director of FEMA has agreed to participate in our conference 
call. Information of an emergency nature is immediately 
disseminated through law enforcement channels and through our 
emergency management agency TEMA.
    The next question you asked me to answer, Mr. Chairman, 
was: Is there someone who has coordinated emergency management 
among Tennessee's VA medical facilities and local hospitals? 
The answer to that, Mr. Chairman, is yes. Coordination for 
hospital emergency management is done through several channels. 
During emergencies, the State Emergency Operation Center at 
TEMA coordinates all emergency management activities 24-hours a 
day through a collection of emergency service coordinators, 
which includes representation from the Tennessee Department of 
Health and VA hospital. The individual spearheading this 
planning efforts on a daily basis is Robert L. Ruth, Central 
District Manager, Emergency Management Strategic Healthcare 
Group and John D. Phillips, Jr., Management Assistant, 
Emergency Management Strategic Health Care Group, the U.S. 
Department of Veterans Affairs. The VA hospitals in Tennessee 
are a part of the VA National Medical Response Network.
    I was also asked to comment about the planning. They are in 
the process of putting together a bioterrorism plan for the VA. 
It is a work in progress, but they are working diligently on 
that, Mr. Chairman.
    I want to commend Governor Ridge for the regional 
conference calls that are now being conducted every other week. 
They are very helpful in obtaining information and allowing us 
to provide input. In summary, let me say that we are in 
desperate need of some Federal funding here in the State of 
Tennessee for our homeland security mission and we need funding 
in a variety of areas. We hope the Congress will approve the 
President's budget request for homeland security in a timely 
way.
    We also urge the Congress to approve actions to enhance our 
intelligence capabilities. We must have timely and meaningful 
intelligence.
    Thank you again, Mr. Chairman, so very much for focusing 
attention on this very, very vital subject for the future of 
America. Thank you, also, for coming to the great Volunteer 
State of Tennessee.
    [The prepared statement of Mr. Gilbert follows:]
    [GRAPHIC] [TIFF OMITTED] 82307.008
    
    [GRAPHIC] [TIFF OMITTED] 82307.009
    
    [GRAPHIC] [TIFF OMITTED] 82307.010
    
    [GRAPHIC] [TIFF OMITTED] 82307.011
    
    [GRAPHIC] [TIFF OMITTED] 82307.012
    
    Mr. Horn. Thank you very much. We will have questions after 
everybody has made their presentation.
    Mr. Ken Burris is the Regional Director of the Federal 
Emergency Management Agency. That agency goes back to President 
Truman and it has had a marvelous evolution in the last decade 
or two because of all of the earthquakes in California, floods 
in California, floods in the Mississippi. So this is a very 
important position. So, Mr. Burris, we want to hear from you.
    Mr. Burris. Good morning, Mr. Chairman. It is indeed a 
pleasure for me to be here today to discuss the pressing 
matters of how FEMA is assisting State and local governments to 
prepare for potential terrorists attacks involving biological, 
chemical or nuclear agents.
    FEMA is the Federal agency responsible for leading the 
Nation in preparing for responding to and recovering from 
disasters. Our success depends upon our ability to organize a 
community of local, State and Federal agencies and volunteer 
organizations.
    The Federal Response Plan forms the heart of our management 
framework and lays out the process by which interagency groups 
work together to respond as a cohesive team to all types of 
disasters. In response to the terrorist events of September 
11th, the Federal Response Plan has proven to be an effective 
and efficient framework for managing all of the phases of 
disaster and emergency operations. The plan is successful 
because it builds upon the existing professional disciplines, 
expertise, delivery systems and relationships among the 
participating agencies in the Federal Response Plan.
    Much of our success in emergency management is attributed 
to our historically strong relationship with our State and 
local partners. Through preparedness programs, we provide 
financial, technical planning, training and, of course, 
exercise support to give State, local and tribal governments 
the capabilities they need to protect the public, the public's 
health and safety and the property from both before and after 
disaster strikes. In meeting the challenges ahead for State and 
local governments, FEMA's Office of National Preparedness is 
becoming more robust.
    The mission of the Office of National Preparedness is to 
provide leadership in coordinating and facilitating all Federal 
efforts to assist State and local governments and first-
responders, as well as emergency management organizations with 
planning, training, equipment and exercises.
    FEMA has made the following changes to support this 
expanded mission within our agency. We have realigned the 
preparedness responsibilities, from our readiness response and 
recovery directorate to the Office of National Preparedness.
    We have realigned all training activities to the U.S. Fire 
Administration. This allows greater coordination between the 
training of emergency managers and the training of our 
country's first-responders.
    We have also moved the authority for credentialing, 
training and deploying urban search and rescue teams from our 
Readiness, Response and Recovery Directorate to the U.S. Fire 
Administration.
    We continue to work with all of the 50 States and the 
territories, tribal nations and local governments to enhance 
their capabilities to respond to all types of hazards and 
emergencies such as chemical incidents involving radiological 
substances and natural disasters.
    We recognize that chemical, biological and radiological 
scenarios will present unique challenges to our first-responder 
community. Of those type of attacks, we are, in many ways, 
better prepared for a chemical attack because such an incident 
is comparable to large scale hazardous materials incidents. 
Bioterrorism, however, presents the greater immediate concern. 
With a covert release of a biochemical or a biological agent, 
the first-responders will quickly become our hospital staffs, 
our medical examiners, private physicians and animal control 
workers instead of our traditional first-responders with whom 
we have had a long-term relationship. The Department of Health 
and Human Services leads this effort of the health and medical 
community to plan and prepare for a national response to the 
public health emergency and is a critical link between the 
health and medical community in our larger local response.
    The Federal Radiological Response Plan which has 17 
signatories, of which the Nuclear Regulatory Commission is the 
lead Federal agency for coordinating overall response, with 
FEMA responsible for coordinating non-radiological support. 
Tabletop exercises have been conducted in order to determine 
agencies and resources for response to a terrorist attack with 
a radiological component. In addition, nuclear and radiological 
threats posed by improved or improvised nuclear devices and 
radiological dispersal devices are being evaluated and the 
preparedness of member agencies and local governments is being 
determined to deal with these threats.
    It is FEMA's responsibility to ensure that the Nation and 
the National Emergency Management System is adequate to respond 
to the consequences of catastrophic emergencies and disasters 
regardless of the cost. We rely on the States and our local 
level partners, and without question, they need to be further 
strengthened and supported to increase their operating 
capacity.
    FEMA must ensure that a national system has the tools to 
gather information, set priorities and deploy resources 
effectively. In recent years, we have made tremendous strides 
in our efforts to increase cooperation between the Federal, 
State and local first-responders, but now we need to do more. 
Our Office of National Preparedness is emphasizing training, 
planning, equipment and preparedness that will enable us to 
better focus our efforts and will help our Nation become better 
prepared for the future.
    I will be happy to answer any questions.
    [The prepared statement of Mr. Burris follows:]
    [GRAPHIC] [TIFF OMITTED] 82307.013
    
    [GRAPHIC] [TIFF OMITTED] 82307.014
    
    [GRAPHIC] [TIFF OMITTED] 82307.015
    
    [GRAPHIC] [TIFF OMITTED] 82307.016
    
    [GRAPHIC] [TIFF OMITTED] 82307.017
    
    [GRAPHIC] [TIFF OMITTED] 82307.018
    
    [GRAPHIC] [TIFF OMITTED] 82307.019
    
    Mr. Horn. Thank you.
    We next have as a presentation Philip Thomas, Special Agent 
In Charge of the Memphis Field Office, Federal Bureau of 
Investigation. Mr. Thomas.
    Mr. Thomas. Good morning Chairman Horn, members of the 
subcommittee and distinguished members of the Tennessee 
delegation. I value the opportunity to appear before you and 
discuss terrorism preparedness, including threats posed by 
attacks involving biological, chemical and nuclear agents, as 
well as measures being taken by the FBI and our law enforcement 
partners to address these threats.
    The mission of the FBI's counterterrorism program is to 
detect, deter, prevent and swiftly respond to terrorist actions 
that threaten the U.S.' national interest at home or abroad and 
to coordinate those efforts with local, State, Federal and 
foreign entities as appropriate. The counterterrorism 
responsibilities of the FBI include the investigation of 
domestic and international terrorism. As events in the past 
several years demonstrate, both domestic and international 
terrorist organizations represent threats within the borders of 
the United States.
    In the interest of time, what I would like to do is 
basically discuss the three primary issues that I think from an 
FBI perspective are most important to the committee. Those are 
training for counterterrorism preparedness, the effective use 
of JTTFs and the warning systems that the FBI is currently in 
the process of getting started or furthering.
    The first is counterterrorism preparedness. In the 
counterterrorism preparedness area, the FBI's Knoxville 
Division, responsible for the eastern Federal District of 
Tennessee, has within its territory the Oak Ridge and Sequoia 
nuclear power facilities. There are no nuclear facilities in 
the Memphis Division. There are research facilities and 
chemical manufacturers such as Dupont and the Williams Refinery 
in Shelby County. Key assets such as lakes, dams and facilities 
owned and operated by the TVA are monitored via cooperation 
with that agency in cooperation with the FBI.
    Counterterrorism preparedness includes field and tabletop 
exercises which test the ability of the response capability of 
agencies who would participate in a disaster involving 
biological, chemical and nuclear attack. The Memphis Division 
has participated in exercises held in Memphis, Nashville and 
Wilson County. The FBI, as the lead agency for crisis 
management, was called upon to implement a plan in coordination 
with other law enforcement, fire, emergency and health 
agencies. The response was reviewed and critiqued by the 
Department of Defense and the Department of Justice.
    The most recent joint field exercise was conducted at 
Adelphia Coliseum and involved virtually every Federal, State 
and local agency including the Red Cross. An instructional film 
was made from that exercise and is used in various venues 
across the United States. The Memphis Division also 
participated in a professionally made film in Nashville which 
was used to train WMD personnel throughout the United States. 
Future training events include a hazardous materials drill 
hosted by the Shelby County Emergency Management Agency in 
March.
    I would also like to list out some of the training 
exercises that we have done in the State of Tennessee in the 
Memphis Division since October 1999. No. 1 was measured 
response. It was a biological exercise conducted at the Memphis 
Pyramid in October 1999. Domestic preparedness exercise at 
Vanderbilt University in September 2000. The Memphis HAZMAT 
exercise with the Memphis Fire Department, and a chemical 
exercise in September 2000. Operation Black Gold, which was a 
chemical exercise conducted with several divisions at Baton 
Rogue, LA in the year 2000. Local emergency planning committee 
drill, a chemical exercise in Millington, TN in the year 2000. 
We also did a West Tennessee domestic terrorism table top, a 
chemical and biological exercise in Jackson, TN in May 2001. 
And last, we did a weapons of mass destruction tabletop 
exercise involving a biological exercise in Memphis, Tennessee 
on September 11, 2001. It was my sad duty to cancel that 
operation while it was in progress because of the events in New 
York. I basically instructed everyone to go back to their 
agencies and we initiated our command post that day. So I think 
we have done quite a bit of training, and there always needs to 
be more training in these areas.
    The next thing I would like to briefly touch upon are the 
effective use of joint terrorism task forces. Cooperation among 
law enforcement agencies at all levels represents an important 
component in comprehensive response to terrorism. This 
cooperation assumes its most tangible operational form in joint 
terrorism task forces that are currently established in 44 
cities across the Nation. These task forces are particularly 
well-suited to responding to terrorism because they combine the 
national and the international investigative resources of the 
FBI with the street-level expertise of the local law 
enforcement agencies. This cop-to-cop cooperation has proven 
highly successful in preventing several potential terrorism 
attacks. We are in the process here in the Memphis Division of 
standing up a joint terrorism task force. It should be 
operational by the end of December.
    And last, I would like to touch upon the threat warning 
systems that the FBI is currently involved with. That would be 
National Threat Warning System first implemented in 1989. This 
system now reaches all aspects of law enforcement and the 
intelligence community. Currently, 60 Federal agencies and 
their subcomponents receive information via secure teletype 
through this system. The messages are also transmitted to all 
56 field offices and 44 legal attaches throughout the world. If 
threat information requires nationwide unclassified 
dissemination to all Federal, State and local law enforcement 
agencies, the FBI transmits messages through the National Law 
Enforcement Telecommunications Systems [NLETS]. We are in the 
process of enhancing this dissemination of information through 
the use of the ANSIR program and the Intraguard program as 
well.
    I see my time has run out. I would just like to conclude by 
saying that the FBI cannot conduct terrorism investigations by 
itself, and in today's climate, we depend on cooperation with 
State, local and Federal agencies. I am proud to say that here 
in Tennessee that cooperation is at a high level. Thank you.
    [The prepared statement of Mr. Thomas follows:]
    [GRAPHIC] [TIFF OMITTED] 82307.020
    
    [GRAPHIC] [TIFF OMITTED] 82307.021
    
    [GRAPHIC] [TIFF OMITTED] 82307.022
    
    [GRAPHIC] [TIFF OMITTED] 82307.023
    
    [GRAPHIC] [TIFF OMITTED] 82307.024
    
    [GRAPHIC] [TIFF OMITTED] 82307.025
    
    [GRAPHIC] [TIFF OMITTED] 82307.026
    
    [GRAPHIC] [TIFF OMITTED] 82307.027
    
    [GRAPHIC] [TIFF OMITTED] 82307.028
    
    [GRAPHIC] [TIFF OMITTED] 82307.029
    
    [GRAPHIC] [TIFF OMITTED] 82307.030
    
    [GRAPHIC] [TIFF OMITTED] 82307.031
    
    Mr. Horn. Well thank you. You did a very good summary. I 
would just like to mention one point, on page 6 where it says 
approximately 900 badges were bought or seized in this various 
law enforcement people. I happen to have a bill on that, it is 
public law and you could take it to the U.S. attorney and 
really nail these people.
    Mr. Thomas. Well that will be beneficial, Congressman, 
because in Tampa when that person was arrested, he was 
considered a misdemeanor, and that was a hinderance to the 
investigation. What we found out subsequently was, two of the 
badges were Naval Investigative Service badges that were 
actually stolen, and that provided us the felony count. So that 
would be very helpful.
    Mr. Horn. Thank you.
    Now we have a representative of the General Accounting 
Office, which is headed by Comptroller General of the United 
States. They work with the legislative branch, and they are our 
right arm on every hearing we have and they do wonderful work. 
The independence of the Comptroller General is very clear. He 
has got a 15-year term and he can call them as they see them. 
So we are delighted to have JayEtta Z. Hecker, Director, 
Physical Infrastructure Issues of the U.S. General Accounting 
Office. Thank you for coming.
    Ms. Hecker. Thank you, Mr. Chairman. I am very pleased to 
be here this morning and to address this important issue about 
the significant threat posed by the highly diffuse and complex 
issue of bioterrorism. The key here, as we have heard from 
everyone, is how dependent an effective response is on an 
intergovernmental response. I think the kind of forum that you 
have established today and the opportunity to really hear from 
the range of participants is a critical first step.
    My remarks are based on, as you said, a wide body of GAO 
work. We cover virtually every aspect of the government and 
have been studying efforts to combat terrorism for over a 
decade. In fact, we had a major report issued on September 20th 
and several of our staff have testified before your committee 
on various aspects of that work. So I am drawing not only on 
the work that I direct, which is overseeing FEMA and emergency 
management, but on the work of our healthcare group that does 
bioterrorism work, our military group that looks at the 
combating terrorism activity, our justice group and many others 
within GAO.
    I am also drawing on our on-going work that we are doing 
for your subcommittee, which I think is particularly well 
focused on the issue that we're looking at today on the special 
challenges in really building effective State, local, Federal 
and even private partnerships to result in much more effective 
preparedness.
    The highlight is that GAO has long called for and been very 
concerned about the absence of a real national strategy to 
combat terrorism. Our focus here is not a Federal strategy, but 
a national strategy that, in fact, really fully integrates not 
only all of the wide range of Federal agencies that are 
involved, but the various levels of government. Basically, my 
remarks focus on three key areas that we think have to be part 
of a national strategy. I might note that, as I am sure many of 
you are aware, the President in the 2003 budget has committed 
Director Ridge to prepare a national strategy, and that is 
something that now is projected for the June timeframe. So the 
remarks that I have focus on some critical criteria are aspects 
that we think belong in a national strategy, and it basically 
covers three areas. The first is addressing the severe 
fragmentation of roles, not only of the Federal agencies but of 
the relative roles of different levels of government.
    The second point is the essential requirement for 
performance standards and accountability. What is preparedness? 
What does it amount to? How will we know it when we see it? And 
finally the third issue is about designing the most effective 
strategy using the full range of tools available to government, 
that it is not just a grant, it is not just regulatory 
approaches. There is really a wide range of tools and they vary 
in their effectiveness and some of their limitations.
    Now on the first point about the fragmentation. One area 
that we found when looking at bioterrorism was how incredibly 
complex the Federal roles were. And on the last page of my 
testimony--it is really kind of alarming--there is a pull-out 
chart that shows you as of about a year ago the relationships 
of all of the Federal agencies in having a role in trying to 
coordinate bioterrorism activities. It is just mind boggling 
and it is daunting and it is overwhelming and it is just pure 
spaghetti. It really is a very serious matter of concern. We, 
in fact, have outstanding recommendations to try to clarify the 
Federal roles. Some work we did on bioterrorism, we found that 
key agencies, Agriculture, FDA, the Department of 
Transportation, were not effectively involved in spite of the 
fact that they had very critical roles in bioterrorism.
    The second point is about performance and accountability. 
Given the large increase in funding that is planned, as well as 
the compelling need for a truly effective strategy here, it is 
absolutely essential that we have clear goals and performance 
measures so that we are more likely to have a successful 
effort. Mr. Ridge himself has said we cannot just throw the 
money out. We have to have clear criteria. We have to know what 
we are getting for it. And with the kind of major increase in 
Federal funding, the absence of these kinds of measures and 
goals in the past is really a severe problem that needs to be 
addressed.
    The third issue is about critical tools. The difference in 
tools is that they will vary in how effective you can target 
highest-risk, how effectively you build shared responsibility, 
and do not just have Federal funds supplant State or local 
activities that already existed. And also, the tool can make a 
difference in how effectively you can track and assess 
progress.
    That concludes the statement and I will be very happy to 
take questions.
    [The prepared statement of Ms. Hecker follows:]
    [GRAPHIC] [TIFF OMITTED] 82307.032
    
    [GRAPHIC] [TIFF OMITTED] 82307.033
    
    [GRAPHIC] [TIFF OMITTED] 82307.034
    
    [GRAPHIC] [TIFF OMITTED] 82307.035
    
    [GRAPHIC] [TIFF OMITTED] 82307.036
    
    [GRAPHIC] [TIFF OMITTED] 82307.037
    
    [GRAPHIC] [TIFF OMITTED] 82307.038
    
    [GRAPHIC] [TIFF OMITTED] 82307.039
    
    [GRAPHIC] [TIFF OMITTED] 82307.040
    
    [GRAPHIC] [TIFF OMITTED] 82307.041
    
    [GRAPHIC] [TIFF OMITTED] 82307.042
    
    [GRAPHIC] [TIFF OMITTED] 82307.043
    
    [GRAPHIC] [TIFF OMITTED] 82307.044
    
    [GRAPHIC] [TIFF OMITTED] 82307.045
    
    [GRAPHIC] [TIFF OMITTED] 82307.046
    
    [GRAPHIC] [TIFF OMITTED] 82307.047
    
    [GRAPHIC] [TIFF OMITTED] 82307.048
    
    [GRAPHIC] [TIFF OMITTED] 82307.049
    
    [GRAPHIC] [TIFF OMITTED] 82307.050
    
    [GRAPHIC] [TIFF OMITTED] 82307.051
    
    [GRAPHIC] [TIFF OMITTED] 82307.052
    
    [GRAPHIC] [TIFF OMITTED] 82307.053
    
    [GRAPHIC] [TIFF OMITTED] 82307.054
    
    [GRAPHIC] [TIFF OMITTED] 82307.055
    
    [GRAPHIC] [TIFF OMITTED] 82307.056
    
    [GRAPHIC] [TIFF OMITTED] 82307.057
    
    Mr. Horn. Thank you.
    Our next presenter is Stanley H. Copeland, director, 
Planning and Training for the Tennessee Emergency Management 
Agency. That is the one that reports directly to the Governor, 
does it not?
    Mr. Copeland. Say again, sir.
    Mr. Horn. I say you report directly to the Governor?
    Mr. Copeland. No, sir. My director is Mr. John White. We 
have been appointed by the Governor as an administrative agency 
for some grant funding, yes, sir.
    Mr. Horn. I see.
    Mr. Copeland. Mr. Chairman, Congressman Bob Clement and 
members of the subcommittee, if I can, I would like to submit 
my written testimony.
    Mr. Horn. It is automatic.
    Mr. Copeland. OK, thank you, sir.
    Mr. Horn. You will find it in a big thick hearing document.
    Mr. Copeland. Again, I thank the members of this 
subcommittee for recognizing the importance of preparing for 
acts of terrorism involving weapons of mass destruction. TEMA 
is responsible for directing terrorism consequence management 
activities and serves as the central coordination point for the 
State's response and coordination with local government and our 
Federal agencies.
    In 1999, our Nation's Governors were asked by the then U.S. 
Attorney General Janet Reno to designate a single agency to 
coordinate U.S. Department of Justice's State domestic 
preparedness equipment grant programs. Our Governor, Don 
Sundquist, appointed our agency, TEMA to administer that 
program. That was a 3-year program that provided funding to the 
State for acquisition of equipment, for the completion of a 
capability and needs assessment and a 3-year statewide domestic 
preparedness strategy.
    The State of Tennessee conducted that assessment in all 95 
counties of our State. The results of that assessment revealed 
that many of the counties in our State lacked proper planning 
for acts of terrorism. Our agency partnered with those local 
governments to correct those deficiencies. I am now glad to 
say, sir, that every county currently has a basic emergency 
operation plan as well as a terrorism incident annex 
incorporated for that response. These plans are an initial 
effort on our part and local government on which improvements 
will be made on a regular basis through lessons learned and the 
conducting of exercise.
    I would also like to say in reference to exercises that we 
do numerous exercises with our Federal agencies and partners to 
include the Department of Energy as well as TVA and our fixed 
nuclear facilities in regards to our response.
    Also included in the assessment, we identified deficiencies 
in our responders' levels of training. Local government 
identified some 66,000 responders across our State that needed 
some level of training, whether it be at the basic awareness 
level or whether it would be at more advanced levels of 
training to include operational technician level type training.
    Some of this training is being addressed through programs 
provided by the Department of Justice, the Federal Emergency 
Management Agency, as well as State agencies. However, there is 
currently insufficient funding at the State and local level to 
meet these training needs as identified in the assessment 
within a reasonable period of time.
    They also identified equipment that they had to respond on 
hand, as well as those equipment that was needed to enhance 
their current capabilities. We identified some $65 million 
worth of equipment across our State in support of that. Thus 
far, current appropriations have provided for approximately 6 
percent of that need.
    To move on, currently there are no funds available to 
address maintenance issues for the money that is currently 
being spent, and within a very few years that is going to 
become a substantial problem. In addition to maintenance, we 
have the issues of shelf life for certain items of equipment 
that responders need. The replacement of those items will also 
need funding. So we basically would like to request that these 
issues be included in future funding for the WMD programs. A 
lack of flexibility in the current programs for the spending of 
money within the authorized equipment list provide by the 
Department of Justice is of current concern with our State. For 
example, I can buy a local fire fighter a Level A suit in a 
volunteer fire department, but we cannot use the money to 
purchase turnout gear, which is essential to his every-day 
response.
    Those are issues that we would like to have addressed, and 
continue to address with the Department of Justice.
    In closing, I would say that our Federal partners from FEMA 
also provide funding for our agency. Those dollars pay salaries 
and benefits and other expenses for emergency management 
personnel assigned exclusively for those preparedness 
activities. Over the past several years local jurisdictional 
demands upon the State have increased in regards to planning, 
training and management of exercises; however, there has been 
no increase in fundings to support those efforts.
    In summary, coordination of consequence management 
preparedness and response for the State of Tennessee should 
continue to have as its point of contact the Tennessee 
Emergency Management Agency. By requiring this continuity, the 
Federal Government can ensure accountability and proper 
coordination of its efforts in addressing these critical issues 
regarding terrorism.
    Thank you.
    [The prepared statement of Mr. Copeland follows:]
    [GRAPHIC] [TIFF OMITTED] 82307.058
    
    [GRAPHIC] [TIFF OMITTED] 82307.059
    
    [GRAPHIC] [TIFF OMITTED] 82307.060
    
    [GRAPHIC] [TIFF OMITTED] 82307.061
    
    [GRAPHIC] [TIFF OMITTED] 82307.062
    
    Mr. Horn. Thank you very much.
    Major General Jackie Wood, head of the Tennessee National 
Guard is our next presenter.
    General Wood. Thank you, Mr. Chairman. My testimony today 
will be in three parts. I will address how we are structured in 
the State, our mission in the State and our issues and concern.
    The Military Department has three major divisions. They are 
the Air National Guard, which is dispersed in our four major 
metropolitan areas. Our Army National Guard which is in 77 of 
the 95 counties and actually touches every city and hamlet 
throughout our State. And the Department of TEMA, which is our 
emergency management, which is spread into three grand 
divisions of the State and has personnel in offices in the 
three divisions. Our strength throughout the military side is 
90 percent plus.
    The unique thing about my department is that we have two 
missions, sir. Our Federal mission is to provide the President 
and the Secretary of Defense with units capable of performing 
their wartime mission. Our State mission is to provide the 
Governor of Tennessee with units capable of performing missions 
in accordance with the Tennessee Emergency Response plan. And I 
submit to you, sir, Tennessee is the overall sixth largest 
National Guard State in the Nation.
    As we sit here today, we have men and women from the 
Tennessee National Guard deployed throughout the world. I would 
like to submit to you that as of just a couple of weeks after 
September 11th of last year, we deployed units to different 
parts of the country. They are involved in the operation Noble 
Eagle and operation Enduring Freedom. We provided airport 
security here, sir, in our State at our six major metropolitan 
airports. It consisted of 128 personnel. We also provide guard 
and security support to other facilities throughout the State, 
and the number of people involved in that were approximately 65 
people.
    As I said, Tennessee Emergency Management is a department 
of ours. For your information, sir, last year they answered and 
had action on over 2,038 calls for assistance. Our homeland 
security issues that you are here discussing today, sir, to ask 
about--No. 1, we were awarded in November a civil support team 
to the State of Tennessee. This would be the 33rd State to have 
these teams. I know that the Department of Defense and the 
Department of the Army's hope is to have one in each State. 
This is a 22-member team that will be federally funded, 
equipped and trained to assist in the response to whether it is 
a natural disaster or a man-made act of terrorism.
    We have, concerns regarding the States medical assets. In 
the 1990's, in the right-sizing of the Army, the decision was 
made to take out many of the medical units from the Army 
National Guard. We feel this is a critical subject to look at 
in an effort to provide the type of support for a response 
should we have a disaster.
    Another item along this line, sir, is aircraft 
modernization. Should we have a disaster or a terrorism act, 
rapid evacuation is of most importance. It would be essential 
to not only move the people out of these areas, but to move the 
right equipment and the right personnel in.
    This concludes my testimony subject to your questions.
    Mr. Horn. Let me just ask you, on page 3, this is not a 
question in a formal sense. But I see New York, Texas, and 
California all have blue in it and I do not know if the 
Tennessee National Guard is deciding to invade those three 
States or----
    General Wood. Sir, along with the national border defense, 
we have put people on our northern border along Kentucky and, 
sir, we also have some dispersed along the Alabama and 
Mississippi borders. [Laughter.]
    Mr. Horn. Well the Confederates were after our gold in 
California. It might still be there. But is that a relationship 
to the Guard here on say going to Korea should something break 
out in Korea?
    General Wood. These things, sir, would be a part of our 
Federal mission. We do have units within the State, both Army 
and Air, that would be for national defense, that could be 
deployed to any country in the world. And as I said, last year 
we had units deployed in approximately 36 different countries. 
So in planning for homeland security, which has been a Guard 
mission since the mid-1600's, since the Massachusetts Bay 
Colony, we also have to consider the men and women that may be 
deployed, and at some point in time the decision may have to be 
made, do you send them over there or do you keep some here for 
the emergency. Does that answer your question, sir?
    Mr. Horn. Thank you.
    General Wood. Thank you, sir.
    Mr. Horn. Although I am still not clear on that blue color. 
[Laughter.]
    [The prepared statement of General Wood follows:]
    [GRAPHIC] [TIFF OMITTED] 82307.063
    
    [GRAPHIC] [TIFF OMITTED] 82307.064
    
    [GRAPHIC] [TIFF OMITTED] 82307.065
    
    [GRAPHIC] [TIFF OMITTED] 82307.066
    
    [GRAPHIC] [TIFF OMITTED] 82307.067
    
    [GRAPHIC] [TIFF OMITTED] 82307.068
    
    [GRAPHIC] [TIFF OMITTED] 82307.069
    
    Mr. Horn. OK, we now have the last presenter on panel one 
and that is Dr. Allen Craig, the State epidemiologist, director 
of Communicable and Environmental Disease Services, Tennessee 
Department of Health. I think you have done a number of things 
for us in Washington. So please give us your presentation.
    Dr. Craig. Thank you, Mr. Chairman, and members of the 
subcommittee for the opportunity to testify today.
    In my role as State epidemiologist, I oversee bioterrorism 
preparedness and response for the Tennessee Department of 
Health and support similar activities in regional and local 
health departments throughout the State.
    The Tennessee Department of Health began planning for 
potential bioterrorist attack in 1998. The events of September 
11th and the anthrax cases that followed made that planning 
effort come into focus and pointed out many areas for 
improvement. It also pointed out significant deficits in the 
public health system.
    The public health infrastructure in the United States has 
been gradually declining for many years. As many communicable 
and vaccine preventable diseases decline in incidence, it has 
been increasingly difficult to convince policymakers of the 
need to maintain a strong public health infrastructure. One 
specific example of the deterioration of the infrastructure is 
the current use of an old DOS-based computer program to report 
communicable diseases to the CDC from State health departments. 
E-mail and Internet access has been introduced only recently in 
many health departments and rapid access for emergencies does 
not exist in many rural health departments. As more and more 
patients are enrolled in managed care organizations, laboratory 
testing normally performed at the State public health 
laboratory has moved to the private laboratory with the 
consequence that public health laboratory staffing is 
decreased. Many public health laboratories are not computerized 
and rely on handwritten reports. There is virtually no surge 
capacity for large-scale emergencies. Most medium-sized cites 
do not have trained epidemiologists to respond to outbreaks.
    The events of last fall, particularly the anthrax cases and 
the multiple possible anthrax exposures highlighted these 
infrastructure defects. In Tennessee our public health system 
was stretched to its maximum capacity and we did not have a 
single case of anthrax or a positive environmental specimen. In 
our public health laboratory we tested over 1,000 environmental 
specimens for anthrax. Since our State laboratory was not 
computerized, we faced an enormous information management 
challenge. The microbiology staff worked 16-hour shifts 7 days 
a week to keep up. This experience pointed out a critical need 
for additional laboratorians to provide surge capacity. It also 
brought home the urgent need for a computerized laboratory 
information system.
    Epidemiologists, public health nurses and health officials 
and virtually everyone available was pressed into service to 
answer questions from the public, providers and media about the 
anthrax cases. Many public health staff worked with law 
enforcement at the scene of suspicious powder incidents to 
assess the risk to the public. Several clinical cases required 
further investigation to rule out anthrax or other bioterrorist 
agents.
    A major challenge we faced was communication. We had 
reasonably good e-mail and fax systems in place to communicate 
with key regional and large city health departments. We had no 
means of rapidly communicating with the 89 smaller rural county 
health departments across the State. Another challenge was 
reaching physicians with important information about the 
outbreak. We did not have e-mail addresses for most of the 
State's practicing physicians. We were able to reach some 
through their professional organizations and in one case, the 
professional society spent the time and effort to send out a 
packet of information by mail. It arrived 3 to 4 days later, 
which was an unacceptably long delay when recommendations were 
changes on an hourly or daily basis.
    The support of the Federal Government, particularly the CDC 
has been tremendous. At the height of the anthrax outbreak, we 
spoke with CDC on an almost daily basis to obtain new 
information and assistance in evaluating possible cases of 
anthrax. The individual staff was supportive and well informed. 
The major problem we had with the CDC was the slowness in 
obtaining alerts about new cases or recommendations because of 
the process of clearance that required senior staff approval 
before posting emergency alerts by e-mail or on the CDC's Web 
site. We were in the awkward position of learning about the 
first case of inhalational anthrax and other important 
developments from CNN before the emergency notification system 
reached us.
    As we look ahead, I can tell we have learned from our 
experience and taken stock of our system-wide shortcomings. We 
have restarted our bioterrorism planning in earnest. Federal 
funding has been a key resource in this effort. Since 1999, it 
has allowed us to substantially upgrade our laboratory testing 
capacity. We have used this new expertise and equipment to 
train many hospital laboratories in Tennessee on how to 
identify and safely handle bioterrorism specimens. This Federal 
funding and the anticipation of receiving substantial new 
funding this year for public health and hospital preparedness 
is an exciting development that will allow us to move forward 
in some key activities. Perhaps more importantly, it will allow 
us to begin the process of rebuilding a robust public health 
infrastructure that will be able to withstand any new 
infectious outbreak that comes our way.
    As we plan for the future, what is critical to Tennessee 
and all State health departments is the sustainability of 
funding for bioterrorism. To make these new readiness 
activities a success as measured by fundamentally upgrading the 
U.S. Public Health System and the local and State level, this 
funding must continue beyond the current crisis. To this end, 
we are pleased with the President's fiscal year 2003 budget 
which includes a continuation of the current level of funding. 
If Congress approves this level of funding, it will allow 
Tennessee and other States to hire and train qualified 
epidemiologists and laboratorians to respond to the next 
bioterrorist attack or unexplained outbreak.
    We appreciate the support of Congress as we work together 
at the Federal, State and local level in this preparedness 
effort. Thank you again for the opportunity to address this 
committee and for your interest in this important topic. Thank 
you.
    [The prepared statement of Dr. Craig follows:]
    [GRAPHIC] [TIFF OMITTED] 82307.070
    
    [GRAPHIC] [TIFF OMITTED] 82307.071
    
    [GRAPHIC] [TIFF OMITTED] 82307.072
    
    [GRAPHIC] [TIFF OMITTED] 82307.073
    
    Mr. Horn. Thank you very much and we will now move to 
questioning. We will start with Mr. Clement, your U.S. 
Representative in this area and there will be a 5-minute limit 
on my colleagues, including myself, so that we can get through 
getting everybody into the area.
    So, the gentleman from Tennessee.
    Mr. Clement. Yes, thank you, Mr. Chairman.
    Ms. Hecker, I will start with you first. You rightly point 
out that homeland security policy is dispersed among 40 Federal 
agencies. In a perfect world, how would you organize an 
effective homeland security plan?
    Ms. Hecker. Start with an easy question, huh?
    Mr. Clement. Yeah.
    Ms. Hecker. Well, we think a positive step certainly was 
the creation of the Office of Homeland Security and the task 
now is really to, as I said, the first thing is clarify the 
roles and responsibilities. As that chart shows, there is a 
designated lead for consequence and crisis management. But the 
lack of clarity below that in terms of the relationships and 
the lead responsibilities really need further clarification. An 
important place to start is actually the relationship between 
the Office of Homeland Security and the office the President 
created within FEMA called the Office of National Preparedness. 
The mission statements are close to identical, so it starts at 
the top, to get some clarity of the mission, and again, the 
second point that I had in terms of getting clarity of the 
standard. That is something that really is missing. Until we 
have greater agreement, first at the Federal level or perhaps 
not even first, but at a national level of what preparedness 
is, because we know with the kind of threats we are facing, 
there is not one quick answer that this is what it is.
    Mr. Clement. Well, as you know, I am one of those that 
think that the time is coming when homeland security should be 
a Cabinet level position rather than a directorship, whereby 
they have some real authority. I think that might apply to the 
State of Tennessee as well, when that time comes--do we or do 
we not have the authority to get the job done or are we putting 
someone in a title position without the authority to fulfill 
the mission.
    What I want to ask of the FBI and Mr. Thomas, in your 
testimony you discuss the FBI's joint terrorism task forces 
that have been established in 44 cities. The goal is to 
increase that number to 56. These are good programs and 
participants are highly, rightly required to have security 
clearances. But numerous police chiefs have complained that 
their officers who work on the JTTFs cannot share the 
intelligence they obtain with anyone in the department, 
including the chief because they do not have the appropriate 
security clearances. Has there been any effort to correct this 
problem?
    Mr. Thomas. Yes, there has. There has been an effort to----
    Mr. Clement. Get your microphone over there.
    Mr. Thomas [continuing]. Increase the number of clearances 
given to the chiefs in the various departments. What we are in 
the process of doing here in Tennessee, all the chiefs of the 
major cities and major departments are getting secret level 
clearances that we are conducting the background investigations 
and they will be getting the raw intelligence that we are 
getting. That should take care of that problem. The Director of 
TBI is in the process of getting a top secret clearance, which 
requires the full background. But we are in the process of 
getting the various chiefs the requisite clearances.
    It should be noted that several of the chiefs--and it is 
not in Tennessee, but I have gotten this from other SACs--also 
complain about the application procedure for the clearances and 
maybe there is a way we can streamline that, but you cannot 
have it both ways.
    Mr. Clement. OK. And General Gilbert, your role in the 
State appears to be similar to Governor Ridge's role in the 
Federal Government, some people are concerned that Governor 
Ridge lacks the authority to accomplish the daunting task of 
melding numerous Federal agencies into a coherent, well-
organized response team. Do you have the authority to 
accomplish that goal among Tennessee agencies?
    General Gilbert. I am very satisfied with my current role 
and position with regard to authority. As I mentioned in my 
testimony, I get great cooperation from all the members on our 
council and we meet frequently. I get their feedback and we 
operate as a team. And also, the Governor himself is a very, 
very active participant on the council. So I am satisfied.
    I might also add that I am in the process of receiving a 
top secret clearance, which I of course used to have when I was 
in the military, and I have had a lot of people wanting to know 
if I am in trouble or not, because this investigation is rather 
thorough. For example, I hope they do not ask Congressman 
Bryant over there, I may be in trouble. [Laughter.]
    But I am very comfortable. It is a good question you asked, 
sir, but I am very comfortable with the progress we have made. 
My only real dilemma in terms of assuring that we are where we 
need to be is to get the General Assembly to move ahead on some 
funding for us, which I hope will be forthcoming.
    Mr. Clement. Thank you, Mr. Chairman.
    Mr. Horn. We will now turn to the other gentleman from 
Tennessee, Mr. Wamp, if you have questions.
    Mr. Wamp. Thank you, Mr. Chairman. I will try to ask three 
or four questions in the time we have. For Mr. Burris with 
FEMA, talking about people, and I would solicit any of your 
response to what can we do short of having additional resources 
to prepare for personnel problems when you said your first-
responders changed based on a different line of attack; for 
instance, biological versus the traditional responses.
    How can we get the people on the ground, and how can we 
prepare to call on more people to enter the first-responder 
network? The personnel problems have to be immense as we 
prepare for some event that might happen in the future. What 
are we doing and what do we need to do that we are not doing?
    Mr. Burris. From the fire service side, let me start there, 
it is a fairly unique community in that the majority of the 
first-responders in that arena in our country are volunteer. It 
is one of the problems of training, having people leave their 
jobs, not unlike, you know, what our National Guard faces a lot 
of times when people have to leave their work environment to 
receive that type of training.
    Primary to that is that each State needs to have a 
comprehensive plan in what the risk that their State faces, 
which are unique to each State, and how that interfaces with 
the response and the first response community. That is the 
reason it is critically important that we start channeling our 
grants to prepare local first-responders through our State 
emergency management agencies. Mr. White, who is the Tennessee 
emergency manager sitting in the front row here, it is his 
responsibility to see that Tennessee is adequately prepared in 
that arena. Now it does little to support his responsibilities 
when numerous grants go outside of his purview to do just what 
we have been trying to do here, which is bolster the first-
response community in their efforts to meet his plan and the 
State of Tennessee's plan.
    So that is one of the critical issues we have to get ahold 
of.
    Mr. Wamp. You know, I met with the Civil Air Patrol 
yesterday which is kind of a volunteer force out there at our 
command if we need them. I had a lot of veterans call right 
after September 11th and said where can I sign up, what can I 
do. Well, you know, they are not going to be called back up, if 
their age requirements no longer work. How can we establish a 
volunteer force of Americans that can be called into action in 
the event of a catastrophe in a State like this? That would 
seem to me to be some approach that we might take together.
    Mr. Burris. We are working on that through the CERT program 
that the President brought up, Certified Emergency Response 
Teams, which are located in the community, but then again, we 
have to support the State in that training initiative. The 
Federal Government is not going to actually come out and do 
that training, it will be done by the States and we need to 
support them in providing them the financial resources, the 
train-the-trainer programs and course curriculum to get that 
out. That is important, because you do not want--in the time of 
a disaster or an emergency, you have to have people responding 
to that have some minimal level of training that understands 
what an incident command system and how they interface in that. 
So that CERT program will certainly start that process.
    Mr. Wamp. Mr. Copeland, while I have still got time, I want 
to get to your question. I understand not only do you serve 
with TEMA, but you have got a real high-level background in the 
military. Without saying things you should not say, what are 
the greatest threats in our State right now in terms of--not 
specifically what somebody could do to hurt us because we do 
not want to telegraph things--but what should we be the most 
concerned about? I heard the FEMA representative, Mr. Burris, 
kind of list in order for him, bio and then chem and then 
nuclear, in that order. But what do you think the greatest 
threat is that we need to be preparing for in our State?
    Mr. Copeland. I feel the greatest threat, Congressman, is 
probably the bio terrorism side of the house. The reason I say 
that is because once a biological agent is released, it is 
uncontrollable, there is no way we can get it back or go in 
there to really try to control that thing. That control and 
that capability is going to come through our State health 
services to make that happen and it is very time consuming to 
do that in most cases. So I would say that is probably the 
greatest threat and could very well be the threat that is going 
to give us the most fatalities.
    Second, I would say that the chemical threat. Our State has 
a lot of chemicals that run up and down our State highway 
system, as we have already discussed this morning, the number 
of interstate highways we have in our State, and there are a 
lot of chemical agents that are in these tankers, rail cars 
that run through our State. They too could generate, create 
substantial casualties if properly used or released. However, 
the response, you know, would be sort of immediate there. We 
would have a chance to get in there, even though there may be 
fatalities, our fire departments, HAZMAT teams and things could 
respond and get in there and actually take some sort of action 
to minimize the fatalities.
    Mr. Wamp. The red light is on, but if I could just follow-
up and ask Dr. Craig, if the provisions in the Frist-Kennedy 
Bill were fully implemented, would our public health 
infrastructure be able to deal with an incident like the one 
Mr. Copeland talks about?
    Dr. Craig. I think that the current funding that we are in 
the process of receiving right now as part of that legislation 
will be a tremendous help to us to build our system. It is 
going to take years to rebuild it I think to get to the 
capacity we need, but I think we are making--we will make good 
progress with this additional funding.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Horn. The gentleman from Tennessee, Mr. Bryant, 5 
minutes to question the witnesses.
    Mr. Bryant. Thank you, Mr. Chairman, I have three 
questions. I am going to go right down the line rapid fire. If 
you could answer yes or no and just a short, maybe 30 second, 
follow-up, or thereabouts.
    Dr. Craig, on the heels of Mr. Wamp's question, yesterday, 
I was in a hearing on healthcare and a doctor testified that 
because of lack of insurance and coverage and all that, that we 
have a lot of people going to the emergency rooms to get their 
healthcare. That is another issue that we need to do a better 
job on, but he implied rather directly that because of that, 
our emergency room facilities might be over-crowded and not 
adequately prepared to accept a situation caused by some sort 
of catastrophic attack as we talked about. Do you see that as a 
problem in Tennessee?
    Dr. Craig. Absolutely. I think that your emergency room 
capacity as well as hospital bed capacity, will be an issue in 
a large scale emergency. Dr. Jones will be testifying in a 
little while, he can talk to you more about that because he 
works in the emergency department but I think that is a 
definite concern.
    Mr. Bryant. Mr. Copeland, as Mr. Wamp alluded to, you have 
got quite a record, you were the NBC advisor to the Delta Force 
for about 3 years at Fort Bragg, which is the second best post 
and second best unit behind the 101st.
    Given that, I heard your testimony to say that maintenance 
is being deferred, and I assume that maintenance is going to be 
a problem one of these days, is that right? Maintenance on the 
emergency response equipment is being deferred?
    Mr. Copeland. What I am saying, Congressman, is there is no 
funding currently that I am aware of that provides for 
continued maintenance and replacement of equipment that has a 
shelf life. For example, some equipment has a shelf life of 
somewhere between 3 to 5 years, so 3 to 5 years from now, even 
though we buy that piece of equipment to support a first-
responder, at some point that piece of equipment is no longer 
going to be serviceable to respond and go into a Level A 
environment. So there is no funding that I am aware of 
currently being talked about for the replacement of such items, 
as well as the maintenance of equipment. You know, equipment 
breaks, it goes down. I am not aware of any funding or at least 
addressing any funding that is for that type of maintenance.
    Mr. Bryant. Thank you. Mr. Thomas, as the FBI agent who 
heads the office of both Nashville and Memphis and the region 
in between, thank you for coming out at my town meeting in 
Memphis right after this and kind of going over some of the 
concerns that the people had.
    I want to follow-up on a comment General Gilbert made about 
one of the most important things we can have is good 
intelligence; and the second part of that with you is that good 
intelligence be shared. I know the Director of the FBI 
indicated that there would be a better situation there in terms 
of sharing intelligence and I know it is not just the FBI, it 
is other Federal agencies, but we have to share that 
intelligence. Do you sense movement there?
    Mr. Thomas. I think there is movement and improvement. I 
just had the opportunity of serving as an on-scene commander at 
the Salt Lake City Games and I have been in the FBI 28 years 
and it was the first time in my career that I saw in our 
command center screens with NSA information, CIA information 
and FBI information on three screens with one keyboard per 
analyst. That was live-time and up-to-date information. And 
once again, as an FBI agent, I was driving a Cadillac out in 
Salt Lake, it was a $310 million Cadillac that we were driving, 
but it worked seamlessly and the cooperation level was there.
    I was at a conference when Secretary of State Colin Powell 
spoke to us and he basically said all the crap ceased on 
September 11th and that is what we saw in Salt Lake. Everybody 
cooperated, it might have appeared to be a bowl of spaghetti to 
outsiders, but it was a seamless operation and it worked very 
effectively.
    Mr. Bryant. Well, having been a U.S. attorney who worked 
with all the law enforcement agencies, there was a lot of crap 
going on, as you say, turf battles throughout. So I am pleased 
to hear that and I want to again thank you for coming up and 
standing up in front of folks like this answering questions, 
and very difficult questions, in a very difficult time.
    Mr. Thomas. Thank you.
    Mr. Bryant. Thank you.
    Mr. Horn. I have just one question and that is, do any of 
you disagree with anybody on the panel, and if so, get your 
things out on the record. Anything that you felt counter to?
    Mr. Thomas. Well, I think the comment from GAO about it 
being a bowl of spaghetti. I think the lines are confusing when 
you look at it from a schematic, but when you actually get into 
operation, things fall together and I think every person at 
this table, every agency represented in this room shows that we 
are here to help the United States. It is amazing what can be 
done when you are faced with a challenge and that is exactly 
what happened in Salt Lake.
    Mr. Horn. Well, that is well put and we will now go to--I 
am sorry, I did not see your hand. Go ahead.
    Ms. Hecker. I just want to say that this is not our 
observation based on the way the chart looks. This is really 
work that has been done working with State and local 
governments and reflecting the concern that they have had about 
dealing with the multiplicity of agencies, the confusion that 
it has caused, the ambiguity, the overlap. I think one 
interesting example is all the different agencies all require 
preparedness plans or strategies, they have not been 
coordinated and it is one of the reasons the Justice program, 
which actually had some funds available, only four States on 
September 11th had even bothered to do the plan because it was 
so complex and burdensome.
    It is true at an operational level that people do their 
very best and there is no doubt about that, to try to overcome 
the problem. But in fact, there are severe problems, there are 
dozens of training programs that are for the same folks and you 
are never sure, if you are a State emergency management 
director, is that good enough or do I have to send someone to 
the DOE and the NRC and the Justice--what is complete. So, 
there are very severe concerns which were validated in all of 
the major--the Gilmore Commission and all of these other 
studies. There are problems, they do have to be resolved. 
People on the frontlines are doing the best they can, but there 
are some problems that really need some streamlining and 
clarification.
    Mr. Horn. Well put and I am glad you made that point. If 
there are no more questions, we will go to panel two. Panel 
one, if it is possible to stay here, maybe we will have 
questions in panel two that we might like your knowledgable 
input. There are a few chairs around. We will get panel two in.
    Dr. Schaffner, Mr. Thacker, Mr. Turner, Mr. Halford, Dr. 
Jones, Mr. Carter and Mr. Kulesz.
    I thank panel two for making your presentations, and if you 
have heard me on this, we are an investigatory committee and 
so, if you would, please stand and raise your right hands and 
we will take the oath.
    [Witnesses sworn.]
    Mr. Horn. Thank you very much. First, we will note that 
there are seven witnesses and they all affirmed the oath. So we 
will start with Dr. William Schaffner, chairman, Department of 
Preventative Medicine, professor of infectious diseases at 
Vanderbilt University School of Medicine. Welcome.

STATEMENTS OF WILLIAM SCHAFFNER, M.D., CHAIRMAN, DEPARTMENT OF 
    PREVENTIVE MEDICINE, PROFESSOR OF INFECTIOUS DISEASES, 
  VANDERBILT UNIVERSITY SCHOOL OF MEDICINE; JAMES E. THACKER, 
 DIRECTOR, MAYOR'S OFFICE OF EMERGENCY MANAGEMENT, NASHVILLE, 
  TN; KENNETH H. TURNER, CHIEF, NASHVILLE POLICE DEPARTMENT; 
    STEPHEN D. HALFORD, DIRECTOR AND CHIEF, NASHVILLE FIRE 
   DEPARTMENT; IAN DAVID JONES, M.D., VANDERBILT UNIVERSITY 
  MEDICAL CENTER; JAMES E. CARVER, DIRECTOR, TENNESSEE VALLEY 
  AUTHORITY POLICE; AND JIM KULESZ, PROGRAM MANAGER, SYSTEMS 
   ENGINEERING AND TECHNOLOGY, OAK RIDGE NATIONAL LABORATORY

    Dr. Schaffner. Good morning.
    Mr. Horn. Welcome to your own school. [Laughter.]
    Dr. Schaffner. That is always nice.
    Members of the committee, good morning, colleagues and 
guests. I appreciate the opportunity to be with you today. I am 
Bill Schaffner, I am an infectious diseases physician and I 
chair the Department of Preventive Medicine at the Vanderbilt 
University School of Medicine.
    My focus is the prevention of communicable diseases, and in 
that capacity, I work very closely with colleagues at the 
Tennessee Department of Health, Dr. Craig and I work very 
closely together, and with colleagues at the Centers for 
Disease Control and Prevention.
    I have been requested to provide a few observations 
regarding the preparation for potential bioterrorism events and 
my comments will reflect both our local experience as well as 
observations from my contacts and colleagues around the 
country.
    So from the point of view of the local response, what is 
still needed? I would suggest three things: Coordination, 
communication and capacity.
    Since September 11th, hospitals in Nashville have worked 
diligently to create bioterrorism response plans to fit various 
possible scenarios and drills have been conducted to test their 
function. Dr. Jones will comment on some of this.
    However, I liken the current situation to an orchestra 
where the strings, horns and tympani are all practicing on 
their own, separate from each other. The effort continues to be 
earnest but we still do not have communicable disease response 
in Music City. At the moment, there is little coordination, 
there is no conductor that will knit these separate elements 
together to create a harmonious response to potential 
communicable disease threats and it will take a substantial 
effort by a respected and knowledgeable person to coordinate 
public health, hospitals, physicians, nurses, emergency 
management, etc., in a response to various bioterrorism 
scenarios.
    Be mindful, biological threats are quite different than 
chemical or explosive events, with which our current disaster 
management teams have more experience. The paradox is, as we 
heard already from panel one, it is the bioterrorism events 
that rank first. Thus, the responses to these events are 
distinctive and we need more work in that regard. The chemical 
response model cannot be applied directly to communicable 
disease scenarios--anthrax has shown us that.
    Now an essential element of coordination is communication 
among hospitals, physicians, nurses, public health workers, 
etc. Dr. Meir Oren, a senior official in the Israeli Ministry 
of Health, visited Nashville recently and we had the pleasure 
of meeting with him. He has major responsibilities for the 
design and implementation of Israel's medical response to 
terrorist acts. Dr. Oren reinforced the critical need for a 
multi-faceted communications network that ties together a 
community-wide response. Our community certainly has 
communications capacity. However, it is institution specific, 
partial and something substantially more sophisticated is 
needed that could tie all the elements of the response 
mechanism together. Dr. Craig commented about how difficult it 
is sometimes to reach elements of the total response plan. He 
mentioned physicians in particular and I would certainly 
reinforce that.
    Once alerted, there must be a trained response capacity. 
Given the structure and financing of healthcare in the United 
States today, there is only minimal surge capacity in the 
healthcare system. Regular winter outbreaks of influenza 
quickly fill up beds and back up patients in emergency rooms. 
We have had a very mild influenza season this year. Even so, 
Vanderbilt Hospital was full to the brim several times last 
month. There was not even a major stress. It will take 
substantial coordinated planning to create the capacity to deal 
with a sudden surge of patients seriously ill with an 
infectious disease.
    Again, a lesson from anthrax. The mortality from inhalation 
anthrax was much less than predicted from the older published 
literature, and that is because hospitals were able to provide 
sophisticated, modern intensive care--lives were saved. The 
medical capacity we would need in a bioterrorist event would 
not be satisfied simply by housing patients somewhere else with 
minimal care. Neither the medical community nor the public 
would find that sufficient today.
    Now, perhaps a more subtle aspect of capacity. One often 
thinks about large, obvious bioterrorism events that suddenly 
produce a large number of patients with severe, unexplained 
illness. That is kind of the chemical exposure model--it all 
happens at once, bingo, you know you have got a problem. That 
could happen. However, with bioterrorism events more likely is 
what occurred with anthrax. The occurrence of disease will be 
subtle, mimicking other illnesses, spread out geographically, 
occurring relatively slowly over time--a few cases here and 
there--and then perhaps gathering momentum. Training and 
coordinating physicians, both in the hospital and in the 
community, to recognize unusual infections and to respond 
appropriately is a task that has begun, but more needs to be 
done.
    Conversations with colleagues around the country indicate 
that these are common themes around the country.
    Now a word about the public health infrastructure already 
mentioned by Dr. Craig. You have heard and will hear more about 
the need to rebuild such a public health infrastructure and I 
endorse that strongly. The Federal response to bioterrorism 
will help restore some of that capacity which, while it readies 
itself to respond to terrorism, will provide enhanced public 
health capacity day-to-day. Indeed, by responding to the usual 
and to newly emerging communicable diseases, the public health 
system builds expertise to respond to unusual bioterrorist 
agents.
    In conclusion, let me just say I provide one last point--
something I will call a sobering reality check. In order to 
attract top people into these positions as we try to rebuild 
public health, one must provide reasonable and competitive 
salaries as well as genuinely professional environments. I must 
say, sadly, it is often the case that both are lacking. 
Salaries in many health departments are low and the working 
environment is often characterized as bureaucratic rather than 
professional. Of course, there are many good people in public 
health today, they are often infused with an extraordinary 
personal sense of dedication and mission, but we cannot rely on 
such dedicated idealism alone to support our country's response 
to bioterrorism. Again, these are circumstances that are common 
across the country.
    Members of the committee, thank you for coming, for 
listening, for responding. Across the country, we have done 
much; much more needs to be done and with your help, we will 
get it done. Thank you very much.
    [The prepared statement of Dr. Schaffner follows:]
    [GRAPHIC] [TIFF OMITTED] 82307.074
    
    [GRAPHIC] [TIFF OMITTED] 82307.075
    
    [GRAPHIC] [TIFF OMITTED] 82307.076
    
    Mr. Horn. Well thank you very much, Dr. Schaffner.
    Our next presenter is James E. Thacker, director, mayor's 
Office of Emergency Management, Nashville, TN. Mr. Thacker.
    Mr. Thacker. Mr. Chairman, members of the subcommittee, 
thank you for inviting me to speak with you today.
    I was asked to speak about how the Federal Government is 
assisting State and local governments in preparation for a 
potential terrorist attack involving biological, chemical or 
nuclear agents.
    Since 1998, Nashville has participated with several Federal 
and State agencies to strengthen its local capabilities under 
provisions of the Nunn-Lugar-Domenici Act. While the Domestic 
Preparedness Initiative got off to somewhat of a rocky start 
from a coordination standpoint, I have seen a conscious and 
sustained effort by our Federal counterparts to smooth out the 
process. I hope to see improvements in distinguishing 
responsibilities at all levels of government, allowing us all 
to work together in a more effective environment.
    Work needs to be done to improve the flow of information 
throughout the three levels of government. For instance, I hear 
Director Ridge is working on solving a part of this problem by 
instituting a state-of-the-art emergency notification system. I 
would encourage support of such programs to ensure we do not 
merely learn important information from the news media, but 
rather from official sources.
    Coordination, cooperation and communication are the most 
important elements of any emergency response and recovery 
process. In Nashville, we have a strong working relationship 
with our local, State and Federal agency counterparts. The 
central theme of planning, training and exercising is to do it 
together, because we have found that a basic familiarization 
with each other is vital to an effective response and recovery 
from incidents.
    In the area of funding, I encourage direct Federal grants. 
And a good place to start would be major cities with 
populations of more than 500,000. There should be separate 
funds for States, smaller U.S. cities and other areas deemed 
appropriate. Having worked for both State and local emergency 
management, I know the needs and vulnerabilities of the major 
cities are more vital to homeland security. The needs of State 
agencies are also vastly different from the smaller cities, 
particularly in the area of day-to-day public safety.
    I believe cities function most effectively with others of 
similar size and common makeup. For example, Nashville has 
gleaned helpful information by working with other major cities 
under the Metropolitan Medical Response System, a program that 
is managed by the U.S. Public Health Office of Emergency 
Preparedness. We meet biannually with our program contact from 
the U.S. Public Health and exchange this information.
    Statewide networking has limited value to us as Memphis is 
the only Tennessee city with a comparable size and scope of 
Nashville. With the many pass-through grants that give the 
State a single pot of money to disseminate at its own 
discretion, government has effectively created competition for 
grants that are not necessarily needs based. If we do not have 
pre-qualifying criteria attached to local grant funding, then I 
testify the system is less effective and basically destined to 
flounder.
    Once moneys are awarded, there needs to be more flexible 
spending requirements. Domestic preparedness funding under the 
Nunn-Lugar-Domenici Act restricts local spending to pre-
specified equipment--personal protective equipment, detection, 
decontamination, communication and pharmaceuticals.
    In Nashville, additional funds are needed for computers, 
software, wireless communications and other incident management 
tools that are not presently eligible for grant funding.
    Increased funding for local search and rescue teams is 
needed. While USAR teams were created before homeland security 
was a priority, ironically the three major terrorist attacks in 
the United States required a significant USAR response. Since 
minutes mean lives, all major cities need to have a local 
capability to perform USAR rather than having to wait many 
hours for outside assistance to arrive.
    Additional Federal logistics support is needed for the 
reception and distribution of CDC push-packs. Due to shipping 
and cost effectiveness, the pharmaceuticals and other supplies 
come in bulk packages that have to be repackaged after local 
arrival before they can be used. Technical advisers arrive with 
50 tons of medical supplies are to supervise a recommended 300 
local workers in the unpacking, repackaging and distribution. 
It makes more sense for the Federal Government to send a 
dedicated, trained work force with the push-packs to manage 
these tasks. With proper training and familiarity with supplies 
and equipment, they can do the job much faster and more 
efficiently. This also avoids placing an additional burden on 
the local government resources already stressed by a major 
emergency.
    In conclusion, I appreciate the work this committee is 
doing and the attention that emergency responders are 
receiving. I know as we continue to work together, we will make 
our cities, States and Nation a safer place.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Thacker follows:]
    [GRAPHIC] [TIFF OMITTED] 82307.077
    
    [GRAPHIC] [TIFF OMITTED] 82307.078
    
    Mr. Horn. Thank you. And our next presenter is Emmett H. 
Turner, the chief of the Nashville Police Department.
    Mr. Turner. Thank you, Mr. Chairman and members of the 
subcommittee. I appreciate the opportunity to speak with you 
today.
    I am very pleased to report that from a law enforcement 
perspective, Nashville is well ahead of the curve in its 
terrorism preparedness. Last September, I appointed one of my 
assistant chiefs to chair a 10-member committee to ensure that 
the police department maintained a high-level of preparedness 
to respond to any terrorist act. The committee meets at least 
monthly and continues to assess the policies, procedures, 
training and equipment needs throughout the department.
    We have done a lot since last September. We have surveyed, 
evaluated and inventoried our chemical and riot equipment. We 
have requested the purchase of additional chemical and riot 
gear through the Office of Emergency Management. We have 
established a primary and secondary catastrophic event staging 
area for police personnel.
    At the request of the Metro Water Department, we have 
conducted unannounced security checks at Water Department 
facilities. The weaknesses we detected were immediately 
reported to the Department Director.
    We have been conducting joint tabletop exercises on 
biological and chemical situations with members of the Metro 
Fire Department. The events of September 11th clearly 
illustrate the importance of police and fire departments 
working closely together to successfully manage a biological or 
chemical incident.
    We have designated 25 police officers to participate in an 
Urban Search and Rescue team. These 25 officers completed their 
initial training last month.
    We have designated a lieutenant in our Intelligence 
Division to be the police department's representative on the 
FBI Middle Tennessee Counter-Terrorism Task Force. Over the 
years, the Metro Police Department and the FBI have formed a 
strong working relationship. The two agencies have made 
information sharing a priority, and I am very pleased with the 
two-way information flow between our department and the 
Nashville FBI office. I have heard that some of my colleagues 
in other cities have been critical of the lack of information 
they are receiving from their Federal offices. I am very 
pleased to say that is not the case in Nashville.
    Two months ago, our police officers arrested a man who had 
pointed an assault rifle in the direction of a Nashville 
synagogue. Given all of the circumstances involved in the case, 
we asked the Counter-Terrorism Task Force to join in the 
investigation. Working together with the FBI and ATF, we wound-
up seizing a large number of pipe bombs, hand grenades, 
firearms, explosive components and bombmaking material. The 
suspect in this case is being prosecuted federally. The case 
illustrates the strong relationship between our department and 
the Federal law enforcement which, in the long-run, benefits 
the safety of Nashville citizens.
    Those of us at the local level very much appreciate the 
Federal Government's financial assistance in obtaining 
equipment and training to prepare our first-responders for any 
terrorist attack involving biological or chemical weapons. I 
do, however, have one suggestion to improve the Homeland 
Security Assistance Program. While grants available from the 
Federal Government have been very important in helping 
communities purchase personal protective suits and related 
equipment, we would like to see the grant criteria broadened to 
allow the purchase of technology such as satellite phones and 
computer software. Communication equipment and computer 
technology are vital tools necessary to adequately respond to 
terrorism incidents and should be part of a well-developed 
contingency plan.
    Again, thank you for the opportunity to appear before you 
this morning and we appreciate all that you do for the citizens 
of Nashville, TN and for this Nation. Thank you.
    [The prepared statement of Mr. Turner follows:]
    [GRAPHIC] [TIFF OMITTED] 82307.079
    
    [GRAPHIC] [TIFF OMITTED] 82307.080
    
    Mr. Horn. Thank you. We have now Stephen D. Halford, the 
director and chief of the Nashville Fire Department.
    Mr. Halford. Good afternoon. Chairman Horn and honorable 
committee members, you have my written statement and I will try 
not to read it to you.
    Let me first start out by saying that from a fire service 
perspective, effective Federal funding of front-line fire 
services should do two key things. They should better train us 
and better equip us. Those are the two main functions that the 
Federal dollars should go for.
    Let us talk about better training of firefighters for just 
a moment. We are talking a lot in this Committee and our 
panelists about the $3.5 billion that will be earmarked in the 
Fiscal Year 2003 budget and how those funds will be spent, and 
that is very important. But the training of firefighters across 
the United States for weapons of mass destruction and nuclear, 
biological and chemical events has been occurring for the last 
decade. So it is very important that although these agencies of 
the Federal Government that are helping us, they may not be 
getting any of these particular funds, they do have budgets and 
we need to focus on their budgets. There is a bedrock of 
training that is going on right now from these Federal agencies 
that will remain the bedrock and I ask you to look at these 
agencies' budgets and make sure that their budgets are properly 
funded. And the particular agencies that produce the best 
results for fire service training for WMD and NBC type 
incidents in the United States are the U.S. Fire 
Administration's National Fire Academy, U.S. Federal Emergency 
Management Agencies, Emergency Management Institute and the 
U.S. Department of Justice's Office of Justice programs, Office 
for State and Local Domestic Preparedness Support. Those three 
agencies of the Federal Government or actually sub-agencies, 
are producing very good quality programs in those areas right 
now and we need to make sure that their budgets are well 
supported, so we urge you to look at their budgets and see if 
you think they are, talk to their folks.
    The second objective of the Federal dollars in helping the 
fire service should be to better equip our firefighters and I 
think there are two components of that. One is that there be 
adequate Federal dollars, which I think there really is going 
to be with the $3.5 billion appropriation for all of our first-
responders, but we need not to assume that because there is 
more money, that money is effective, which indeed has been 
commented on by several of you this morning. You have got to 
ensure that the dollars in order to achieve the specific goal 
of equipping our firefighters actually and directly reach us.
    It is also important to ensure that after the appropriation 
by Congress, Federal dollars earmarked for equipping us--and 
when I say us, I am talking about the fire service, our aspect 
of it--reach us promptly.
    We are concerned in the fire service about the channeling 
of the prospective funds to our fire departments. Now I am 
talking strictly about any specific appropriations for fiscal 
year 2003, the $3.5 billion. Those fiscal year 2003 
appropriations that are specifically intended to better equip 
the fire service, and that is only part of that $3.5 billion--
that is what we are most concerned about.
    We would like for those funds to reach us under the Federal 
Assistance to Firefighters Grant Program. The Assistance to 
Firefighters Grant Program, initially known as the Firefighters 
Investment, Response and Enhancement Act, is only 2 years old 
and it was a way to get Federal dollars directly to the 
departments. The Assistance to Firefighters Grant Program is 
the method we would like to continue to use to get those 
dollars to us. However, that program has essentially been 
gutted for fiscal year 2003 because it has been included in the 
large Homeland Security. We want to make sure those dollars 
come directly to us by way of our local governments which must 
approve the funds because they are grant matchers for it. We do 
not need to reinvent the wheel and have you distribute funds 
that are coming to the fire service. The concern is that the 
funds are given directly to the States. Technically there are 
no State fire departments. We will have to come up with work 
programs and submit programs for approval. We would like those 
funds to come directly to us.
    So in summary, the Federal effectiveness in supporting the 
Nation's fire department first-responders can best be achieved 
by supporting those Federal agencies that train us and those 
Federal spending authorizations that directly and expeditiously 
equip us.
    Thank you.
    [The prepared statement of Mr. Halford follows:]
    [GRAPHIC] [TIFF OMITTED] 82307.081
    
    [GRAPHIC] [TIFF OMITTED] 82307.082
    
    [GRAPHIC] [TIFF OMITTED] 82307.083
    
    Mr. Horn. Thank you. I particularly appreciate that formula 
situation.
    We now have Dr. Ian David Jones, Vanderbilt University 
Medical Center.
    Dr. Jones. Mr. Chairman, members of the subcommittee.
    I would like to give you a flavor of how these issues are 
being addressed at our hospital and on a local level. And to do 
that, I will divide my testimony into three parts. I want to 
talk about a situation we faced 6 months ago, the present 
situation and a description of the Vanderbilt bioterrorism 
subplan. And I would also like to identify some problems that I 
have identified within our current system.
    Our lack of preparedness to deal with a bioterrorist attack 
was made very clear on the morning of October 4, 2001 when an 
individual who was initially described to us as a terrorist 
slit the throat of a Greyhound bus driver near Manchester, TN. 
The bus ran off the road, flipped, there were a number of 
patients who were killed, a number of patients were brought 
back to Vanderbilt via Lifeflight. While the helicopter was en 
route to Vanderbilt with these injured patients, we received 
further information from what at the time we thought was a 
credible source that these patients had been contaminated with 
a biological agent. Nothing that we had experienced up to that 
point had prepared us to deal with the threat and many of the 
staff frankly in the ER were very frightened.
    On the very same day, the first case of inhalational 
anthrax was described by the CDC in Florida. As further cases 
of anthrax were reported in other cities, it became clear that 
the institution was not prepared to handle the large number of 
patients who might present in the event of a bioterrorist 
attack.
    As a result, at Vanderbilt, a committee was formed to draft 
a subplan to our Hospital Disaster Plan, which dealt 
exclusively with bioterrorism. The goals of this plan were 
twofold. We wanted to expedite the rapid evaluation and 
treatment of a large number of individuals who may have been 
exposed to biological agents and our goal was arbitrarily 1500 
patients per day. And the other part of our goal was to educate 
patients, families and staff about biological agents, their 
risks of exposure and the potential signs and symptoms 
connected to that exposure.
    As a part of the plan, Vanderbilt created a hospital 
pharmaceutical stockpile at considerable expense to the 
hospital, that was coordinated and dispensed by our hospital 
pharmacist. We assembled first-line antibiotics enough to treat 
5,000 people for 3 days in the event of an exposure. We 
assembled stock preparations which were available on an 
immediate pre-mixing dosage appropriate for children and we 
increased our hospital supply of antidotes, IV antibiotics and 
IV fluids.
    In addition, Vanderbilt has constructed a mass 
decontamination facility which is immediately adjacent to our 
emergency room. This was actually the first mass 
decontamination facility in the region and it was constructed 
about a year before the events of September 11th. Subsequently, 
our Veterans Administration Hospital has actually used our 
plans to construct an identical facility on their campus across 
the street.
    Our Environmental Health and Safety Office here is also 
providing ongoing training for emergency room nurses, 
physicians and other staff and the appropriate methods for 
decontamination in the event of a nuclear, biological or 
chemical event.
    We have concentrated heavily on education here at 
Vanderbilt. There are a number of our staff members who were 
very concerned and frightened obviously when all this occurred, 
so as a result, our Learning Center developed both videotape 
and written materials on nuclear, biological and chemical 
agents that have been taught to over 5,000 Vanderbilt staff 
members.
    In addition, all staff members who participate in our 
bioterrorism drill at Vanderbilt have received advanced 
training on agents of bioterrorism and critical stress 
debriefing techniques.
    In the past 2 years at Vanderbilt, we have participated in 
five separate drills that have dealt with either biological or 
chemical agents. Most recently, in January of this year, we had 
an internal drill involving 165 people who were simulated to 
have been exposed to anthrax at Nashville Predators hockey 
game. We have also participated locally, the city's 10 major 
hospitals have been coordinating disaster management efforts 
for over 15 years. As Mr. Thacker has told us, this is 
administered by the Office of Emergency Management and 
supplemented by our MMRS grant which is an integrated program 
between EMS, police, hospitals and the Nashville Health 
Department. This has given us resources for training and 
implementation at the EMS level as well as hospital resources 
for PPEs, decontamination equipment and antibiotics.
    I will tell you from what we have received, it is not 
enough.
    My testimony will conclude actually with identifying 
problems that I see within our current system. The No. 1 
problem that I see we are facing today is emergency department 
over-crowding. There are times when our emergency department 
has 15 or 20 patients waiting in our waiting room and it is 
absolutely filled to capacity. The reasons for this are multi-
factorial. We are serving as a safety net for uninsured 
patients in Tennessee without doctors; we are serving as a 
primary care resource because we do not have adequate primary 
care resources within the public healthcare system; there is an 
older, sicker population as the baby boomer generation ages and 
there is generally a breakdown in the mental healthcare system. 
We also see a number of patients coming in requesting alcohol 
and drug rehabilitation. Services that we are not used to 
providing in emergency rooms we are being forced to provide.
    We have a huge problem with citywide surge capacity. Right 
now, as Dr. Schaffner mentioned, a minor epidemic such as the 
flu that we have had this month has closed a number of 
hospitals in town. It does not take a lot of imagination to 
understand what might happen if 1,000 critically ill patients 
requiring ICU care were dumped on the system at the same, as 
might happen in a bioterrorism event.
    We also need to improve our regional communications. This 
broke down during the Greyhound bus event and we did not know 
what was going on. We have a number of EMS services with their 
own communication systems but there is no coordination in the 
State for that.
    We need to upgrade our laboratory facilities, as Dr. Craig 
has spoken about, and frankly our level of rural preparedness 
in Tennessee is still very low. It is not possible for the 
smaller hospitals to do what we have been able to do at 
Vanderbilt, because they do not have the expertise and they do 
not have the funding. This has cost Vanderbilt several hundred 
thousand dollars to put together and it is impossible for 
smaller hospitals to do that.
    I appreciate the time you have given me this morning. Thank 
you very much.
    [The prepared statement of Dr. Jones follows:]
    [GRAPHIC] [TIFF OMITTED] 82307.084
    
    [GRAPHIC] [TIFF OMITTED] 82307.085
    
    [GRAPHIC] [TIFF OMITTED] 82307.086
    
    [GRAPHIC] [TIFF OMITTED] 82307.087
    
    [GRAPHIC] [TIFF OMITTED] 82307.088
    
    [GRAPHIC] [TIFF OMITTED] 82307.089
    
    [GRAPHIC] [TIFF OMITTED] 82307.090
    
    [GRAPHIC] [TIFF OMITTED] 82307.091
    
    Mr. Horn. Well, thank you, that's a key segment of anything 
to do with terrorism.
    We now have James Carver, the director of the Tennessee 
Valley Authority Police.
    Mr. Carver. Good afternoon, Mr. Chairman, members of the 
subcommittee. Mr. Chairman, welcome to the Tennessee Valley. I 
applaud you for holding these hearings and thank you for the 
opportunity to testify before you here today.
    Before I continue, Mr. Chairman, all of TVA would like to 
wish you well in your pending retirement from Congress and good 
luck in all your future endeavors.
    I would also like to thank the members of the Tennessee 
delegation who are here today--Congressman Wamp, Mr. Bryant. I 
just want to thank you and, Mr. Clement, thank you very much 
for being here today.
    I am pleased to give you an update of the Tennessee Valley 
Authority security and our ongoing coordination with State and 
local governments. As we all know, these two issues are of 
critical importance to the safety of all Americans. TVA's 
preparedness, diligence and coordination of resources are vital 
to the protection of citizens from future threats.
    I would first like to recognize the importance of the 
Federal, State and local agencies here today. Through their 
assistance and support, TVA has greatly enhanced its security 
and emergency preparedness plans. I am confident that as we 
continue to work together, communications and coordinations at 
all levels of the government will become stronger--not just 
here, but across the Nation.
    TVA's mission is to improve the quality of life for 
residents in the Tennessee Valley. TVA does this by providing 
an adequate supply of affordable and reliable electricity, 
management of the Tennessee river system, environmental 
stewardship and economic development programs. Our goal is to 
continually strive for excellence in business performance and 
public service.
    In order to fulfill this mission, TVA operates 49 dams, 
three nuclear plants and a number of other power production and 
transmission facilities. Managing the Nation's fifth largest 
river system also requires TVA to balance the demands of the 
Valley's water needs, including water quality protection. These 
operations require that TVA have in place specific security 
measures and emergency preparedness plans. Those of particular 
interest today pertain to water quality and TVA's nuclear 
assets.
    About 4 million Valley residents depend on the Tennessee 
River system for their water supply. This responsibility 
requires that TVA constantly monitor water quality for 
naturally occurring and non-natural substances. We do this by 
monitoring water quality at 60 sites year round and reporting 
results to local officials, as they need them.
    TVA dams are able to impound water, if the containment of a 
pollutant is needed. Our emergency procedures ensure that we 
respond quickly and that we work in close relationship, in 
partnership with State and local agencies to address those type 
problems.
    TVA has also initiated a dialog with State governments, 
updating and creating new action plans in the event of 
biological attack. The intent is to strengthen the protection 
of the water supply and discuss the capabilities and limitation 
with each agency represented.
    Additionally, TVA coordinates closely with State and local 
enforcement agencies to provide marine patrols, security on 
Federal properties, traffic control and other law enforcement 
activities. This cooperation bolsters the law enforcement 
presence at these key public health and recreation facilities.
    Since September 11th, security of the Nation's nuclear 
power assets has been a top priority. TVA's nuclear security 
staff has worked closely with the TVA police, local law 
enforcement agencies and emergency officials to further define 
interfaces and evaluate new ideas. One of these initiatives 
included meeting with the National Guard at our nuclear plants 
to solidify emergency contingency plans. Also, TVA has begun a 
series of meetings with local law enforcement agencies for 
organizing and clarifying responsibilities.
    Prior to September 11th, several coordinating points 
between TVA and other government agencies were already in place 
as contingencies for intentional or unintentional nuclear 
incidents. Examples are the establishment and continuation of 
emergency preparedness programs and annual emergency exercises. 
These initiatives specifically state precise actions and steps 
for both TVA and other government agencies in emergency 
circumstances. TVA assists in these situations partially by 
including technical expertise, development of field teams, site 
monitoring and a joint communications center.
    In conclusion, the terrorist attacks on America have 
reinforced the need of proactive planning between agencies. It 
is of the utmost importance for us to coordinate our collective 
resources. TVA and other agencies must work together to provide 
the safest environment for the public as possible, while also 
continually refining our ability to respond.
    Thank you for the opportunity to testify here today to 
share TVA's security and emergency response measures with you. 
And I commend you for your leadership here today.
    [The prepared statement of Mr. Carver follows:]
    [GRAPHIC] [TIFF OMITTED] 82307.092
    
    [GRAPHIC] [TIFF OMITTED] 82307.093
    
    [GRAPHIC] [TIFF OMITTED] 82307.094
    
    [GRAPHIC] [TIFF OMITTED] 82307.095
    
    [GRAPHIC] [TIFF OMITTED] 82307.096
    
    [GRAPHIC] [TIFF OMITTED] 82307.097
    
    [GRAPHIC] [TIFF OMITTED] 82307.098
    
    [GRAPHIC] [TIFF OMITTED] 82307.099
    
    Mr. Horn. Our last presenter on panel two is Jim Kulesz, 
the program manager, systems engineering and technology, 
Computational Sciences and Engineering Division at the Oak 
Ridge National Laboratory. Thank you for coming.
    Mr. Kulesz. Thank you. Chairman Horn and distinguished 
members of the committee, thank you for inviting me here today 
to testify on a topic of how the Federal Government is 
assisting State and local governments to prepare for a 
potential terrorist attack involving biological, chemical or 
nuclear events.
    My name is James J. Kulesz and I lead the effort at Oak 
Ridge National Laboratory to develop SensorNet, a strategy to 
protect the United States by rapidly deploying a nationwide 
real-time detection and assessment system of chemical, 
biological, radiological and nuclear threats. SensorNet will 
provide a national operations office or center with the 
capability to dispatch informed first responders within minutes 
following a chemical, biological, radiological or nuclear 
event.
    Dispatched first-responders will know the critical details 
of the event to include the exact identification of chemical 
and biological agents as well as levels of radiological 
releases. Not only will first-responders know the exact 
location and identification of the threat, but they will also 
know the projected route of dispersal in sufficient time to 
take corrective action. In the aftermath of such a terrorist 
event, the capabilities of SensorNet could save thousands, if 
not millions, of lives.
    By combining assets from both the government and private 
sectors, all components for SensorNet presently exist and a 
nationwide system can be rapidly deployed. In fact, field 
testing of SensorNet technology will be conducted in 2 weeks at 
three locations in the State of Tennessee. And incidentally, 
General Gilbert who heads the Tennessee Homeland Security 
Office, is graciously allowing us to use his office as a 
command center during those tests.
    Importantly, a nationwide system can be rapidly deployed 
because SensorNet's state-of-the-art sensors and remote 
telemetry will be located at existing cellular 
communicationsites. Presently, there are more than 30,000 
cellular sites in the United States that have been 
strategically located, based on population densities to create 
the Nation's wireless telecommunications infrastructure. 
Therefore, SensorNet's ideal deployment template currently 
exists.
    Oak Ridge National Laboratory has developed the Block II 
Chemical-Biological Mass Spectrometer [CBMS] for the Department 
of Defense for use by the military. While continuously sampling 
the air, the CBMS detects and identifies both known and unknown 
chemical agents in less than 45 seconds and biological agents 
in less than 4 minutes. The CBMS is the only device in the 
world that has this proven capability. In addition, sensor 
technology to rapidly detect the presence of a nuclear release 
is available and will also be incorporated into the system.
    Through remote telemetry, each SensorNet site will 
communicate the detection, identification and assessment of a 
CBRN event to a National Operations Center within 5 minutes. 
SensorNet will include software models currently used in all 
military command centers throughout the world. This software 
modeling system is called Hazard Prediction and Assessment 
Capability [HPAC]. Following the detection of a CBRN event by 
sensors, HPAC will, in real time, produce a plume model, 
determine the location and number of exposed people, predict 
the location and number of exposed people in the future, if no 
action is taken, and predict immediate and latent health 
effects on the population.
    In summary, SensorNet is a strategy to protect the Nation. 
The capability to dispatch informed first-responders within 
minutes following a CBRN event will save lives. This is an 
issue of the highest national concern for the Office of 
Homeland Security and meets the criteria of the Bioterrorism 
Preparedness Act of 2001 as well as other legislation. All 
components for SensorNet presently exist. We are in a state of 
war; there is a national need for the immediate deployment of 
SensorNet.
    Congressmen, to put the capabilities of SensorNet in 
perspective, if a chemical, biological, radiological or nuclear 
event occurred at the start of my testimony, by now, SensorNet 
would have provided first-responders with information to save 
lives.
    Thank you, gentlemen. I welcome your questions.
    [The prepared statement of Mr. Kulesz follows:]
    [GRAPHIC] [TIFF OMITTED] 82307.100
    
    [GRAPHIC] [TIFF OMITTED] 82307.101
    
    [GRAPHIC] [TIFF OMITTED] 82307.102
    
    [GRAPHIC] [TIFF OMITTED] 82307.103
    
    [GRAPHIC] [TIFF OMITTED] 82307.104
    
    [GRAPHIC] [TIFF OMITTED] 82307.105
    
    [GRAPHIC] [TIFF OMITTED] 82307.106
    
    Mr. Horn. Thank you.
    I have a question for Mr. James E. Carver, the director, 
Tennessee Valley Authority Police; and that is this: We all 
agree that the emergency management programs must remain a 
priority in our government spending programs. Given that, if 
you could be granted one wish that would more improve the job 
you are doing, what would it be?
    Mr. Carver. Of course, the one wish would be unlimited 
manpower. That would be what I think all of us could use, is 
more personnel. But I think the primary thing and the most 
important wish I would have is that we can continually work 
together, as I think we are here in the State of Tennessee to 
coordinate our efforts. We have done that since September, we 
did that prior to September 11th, in trying to prepare for 
these type disasters. But I think the cooperation and 
coordination that we strive for is, above all, what we need to 
continue to pursue.
    Mr. Horn. Thank you. I will now give my colleagues 5 
minutes each, and we will start with Mr. Wamp and work our way 
up.
    Mr. Wamp. Thank you. I have two questions, and one may 
require our GAO professional to come back up.
    I am on the Appropriations Committee and we have talked, 
particularly in the first-responder arena--law enforcement, 
firefighters--about grants. And with this much new money coming 
online all at one time, are there ideas of how we can better 
fund these programs so that the money gets to the needs in the 
most effective way? People have actually used the term 
``earmark,'' today and of course if you are a member of the 
Appropriations Committee and you say earmark, everybody thinks 
you're a porkmeister, that you are trying to earmark moneys 
just for a parochial interest. But frankly, earmarking can be a 
way to actually get the money to the specific need rather than 
just throwing it in a big pot and hoping that it arrives where 
it needs to.
    So I just wonder--I know that we created the firefighter 
grant program 2 years ago, $100 million, for smaller 
firefighting efforts in rural America, and I guess I am looking 
for ideas or feedback that might help us direct these resources 
quicker to where they need to go.
    Mr. Halford. I would be happy to address that. I think you 
hit the nail right on the head. The proof in the pudding is how 
moneys are distributed for funding. The Firefighters Assistance 
Program, which is 2 years old, the Fire Act, as you said, 
started out with $100 million, current fiscal year it is $360 
million, and it was targeted to be $900 million in fiscal year 
2003. The people who decide how this money should be 
distributed to the fire departments--and that could be local 
government if it is a paid fire department, but it could be a 
volunteer fire department which may not be part of local 
government--but in any event, there is consensus by the 
International Association of Fire Chiefs, which the paid 
management of the fire service, the International Association 
of Firefighters, which is labor organization, and the National 
Volunteer Fire Council. And in fact, I have a letter that I 
will leave with you today that is signed by all three groups, 
that we would like to continue any money that is funneled to 
the fire service, whether it is through this prospective $3.5 
billion, go through that group that funnels the money to us, 
because the group is composed of fire chiefs and volunteer 
officers from all over the country, and they decide--they sit 
and they take grant applications, they review, they funnel the 
money directly to us.
    Now you should understand that anything that we do to 
enhance ourselves before the focus of September 11th better 
prepares us to handle all emergencies.
    So I think the point that you are inquiring on, and I am 
just speaking for the fire service--there are ways that have 
already been invented to distribute that funding. The fire 
service does not want that going to State governments who then 
must filter and distribute. We have got a good method. Any time 
you get the International Association of Fire Chiefs, 
Firefighters and Volunteer Fire Council all together on one 
issue, you have accomplished something because we are very 
passionate people and our groups have some different ideas, but 
the whole--the Nation's fire service is totally united on 
distributing these funds through that grant act.
    Mr. Wamp. Dr. Schaffner, an example is I am one of the 
members who have committed to doubling the funding for NIH over 
a 10-year period of time, and this past year we increased NIH 
funding by 15 percent--huge single year increase. But I am told 
that with a level that is arbitrary, 15 percent, we are still 
not getting the money directly to where it needs. I would 
solicit, not just today, but in the future, your input on how 
the moneys can best get to the specific needs as opposed to an 
arbitrary dollar figure, we need this nationwide, as opposed to 
exactly what do we need, how can that money really rifle shot 
in on the need.
    Dr. Schaffner. I would just comment that the NIH moneys 
fund basic research and Tony Fauci, the Director of the 
National Institute of Allergy and Infectious Diseases actually 
provides a great deal of guidance about how that money should 
be spent, and actually we are pretty happy with how that is 
working.
    I would suggest you pay equal attention to how the CDC is 
funded, because the CDC works directly with State and local 
health departments and that agency takes the fruits of the 
research and actually applies it. They are the first line 
responders and investigators of potential outbreaks of 
communicable disease and we rely strongly on that agency to be 
the strong Federal backbone of our public health system.
    Mr. Wamp. Very important. My time is up, but I want to 
comment that it is good to hear that there may be some other 
productive use for those awful 30,000 cell towers that have 
cropped up all over our country. And I am also very proud that 
SensorNet comes from our State, from our region and that, yet 
again, we are out on the cutting edge of breakthroughs that can 
actually solve the free world's problems, especially at this 
level of high-technology. I tell my colleagues that I 
understand that the funding requests to actually meet the 
national plan is only $10 million, and so we will be coming to 
you for funding I think for SensorNet from the Oak Ridge 
National Laboratory. But is that not exciting for all 
Tennesseans to hear of that potential investment that we could 
make to help solve this problem.
    And with that, the red light is on and I yield back.
    Mr. Horn. I thank the gentleman.
    Now Mr. Clement.
    Mr. Clement. Thank you, Mr. Chairman.
    Chief Turner, you state that the Nashville Police 
Department has conducted unannounced security checks at Water 
Department facilities and weaknesses were found. Have these 
weaknesses been corrected?
    Mr. Turner. Congressman, to my knowledge, they have been 
corrected. Certainly the insufficient security measures that we 
found were reported to the Director of the Water Department, 
and I feel confident that he has taken the necessary steps to 
correct those deficiencies.
    Mr. Clement. Dr. Jones, could you explain what you mean by 
hospital diversions and surge capacities? Do they occur often? 
Why are these diversions increasing and what happens if all 
hospitals in a particular region were to go on diversion at the 
same time, and has it ever happened?
    Dr. Jones. Hospital diversion is when a hospital fills, 
essentially, due to a number of reasons. There are either not 
enough nurses to staff the hospital or the hospital is 
physically full of patients, every bed in that hospital has a 
patient in it. When that occurs, you request that the EMS 
services no longer bring you patients by ambulance. If patients 
still want to come to your facility, they can, but in order to 
take some of the pressure off the hospital, we make that 
request. That is what diversion is.
    There are a number of times in the year that hospitals in 
this city, including Vanderbilt, are on diversion. This problem 
is not as big as it is in some other cities. We have never had 
a situation here where--that I know of--where every hospital 
has been on diversion at the same time. But that has happened 
in other communities. When that happens, there is really 
nowhere for the EMS service who may be carrying critically ill 
patients, to take them. There are reports of ambulances driving 
around cities looking for places to take patients and there 
have even been patients who have died during that. So it is a 
serious problem.
    I do not know if that addresses all of your question or you 
might want to--is that OK or do you need a little bit more?
    Mr. Clement. No, I think you did.
    Dr. Jones. OK.
    Mr. Clement. And Dr. Schaffner, I know you commented to 
some degree on this, but you present a pretty grim picture of 
the Nation's public health system. Do you see any light at the 
end of the tunnel in rebuilding the public health system?
    Dr. Schaffner. I think that there has been an awakening of 
interest and a realization that the public health system needs 
to be rebuilt. Dr. Craig told us about some Federal funding 
that is helping us in Tennessee to rebuild the laboratory 
capacity. Likewise, that sort of assistance is needed across 
the country to rebuild laboratory and communicable disease 
investigative capacities and the capacity to respond. That is 
something we need to work on.
    Mr. Clement. OK. And Mr. Carver, you state in your 
testimony that military guards assisted you in protecting the 
substation that supplies power to Fort Campbell. Is there any 
arrangement in place to use either military forces or the 
National Guard on a broader basis to protect TVA facilities in 
the event of a major attack?
    Mr. Carver. Yes, Congressman, we have worked closely with 
the National Guards across the Valley for that very purpose, so 
that if we, TVA police, and TVA expends its resources to the 
point that there is something imminent or something more 
disastrous that we are not expecting to occur this suddenly, 
then we have contingency plans to where we can contact and work 
with the National Guard across the Valley for their rapid 
response; yes, sir.
    Mr. Clement. Mr. Kulesz, I am really excited about the 
SensorNet and its potential in the future.
    Mr. Kulesz. Thank you, sir.
    Mr. Clement. I want to know more about it. Do other 
agencies around the country know of its potential and how it 
could----
    Mr. Kulesz. We are getting the word out now and trying to 
talk to as many people as we can in the other agencies to look 
for funding sources for bits and pieces of SensorNet.
    Mr. Clement. Well, I am looking forward to working with you 
and Mr. Wamp.
    Mr. Kulesz. Thank you, sir.
    Mr. Clement. Thank you.
    Mr. Horn. The gentleman from Tennessee, Mr. Bryant.
    Mr. Bryant. Thank you, Mr. Chairman.
    I know that I speak for all my other colleagues here from 
Tennessee in just thanking you and whoever else helped put 
these two outstanding panels together. The very high quality of 
these folks makes us all proud here and I very much appreciate 
it. I think they have been very informative.
    I also want to put in a good plug for TVA. You can tell by 
the testimony of Mr. Carver today that we have got a great 
organization here in the Valley. We in the Valley are very 
proud of TVA, they have, without Federal dollars--they do not 
use Federal money in their budget--they have been a wonderful 
asset to this region, with reliable electricity and inexpensive 
electricity. And being a member of a subcommittee that actually 
is talking about deregulating electricity and being at the 
table on behalf of TVA and the consumers, you can see the 
reluctance of many of us to want to talk about that subject 
during these times.
    But I have two questions back to the subject at hand. One 
would be to Dr. Jones, I asked the question with the earlier 
panel about the emergency rooms and I think you very clearly 
have responded to that question. I would ask you, keeping in 
mind that I have one more question that I would like to ask Mr. 
Kulesz about his equipment, but Dr. Jones, I would ask you, 
since most of Tennessee probably would be classified as rural, 
certainly a lot of my district, as I go down to Memphis and 
toward Pickwick and up to Clarksville and over here, with 
everything in between, much of it is rural. We have a number of 
rural hospitals. How do we help these folks at these hospitals 
get a grasp on what could happen out there without causing 
people all surging into the metropolitan areas for their care? 
Is there hope?
    Dr. Jones. I think there is certainly hope. I would really 
like to see the approach taken that we have the major academic 
medical centers in Tennessee serve as centers of excellence. We 
have the resources at the bigger hospitals that are affiliated 
with universities that have teaching staff and residents to 
formulate these plans and dispense them to the smaller 
hospitals. I think what we need to do--and some of this is 
actually being done right now through the THA--is appropriate 
fundings to the larger hospitals to form these centers and then 
have the centers accumulate the materials and then disperse it 
throughout the State. Our plan could be someone else's plan. We 
can coordinate how we are going to take care of this at the 
small hospitals, we can discuss decontamination, we can use the 
expertise that we have here, Dr. Schaffner and others, and let 
it trickle down to the smaller hospitals.
    Mr. Bryant. Is this concept that we talk about some in 
Congress--I know I have advocated it and others have--
telemedicine, where bigger hospitals can reach out via 
telecommunications and actually help out----
    Dr. Jones. Sure. One of the things that we have talked 
about is actually putting some of these resources on the 
internet. Certainly when we put our bioterrorism subplan 
together we actually used a template that was already available 
on the Internet through APIC which is an infection control 
organization, and we have subsequently modified that.
    But I think the best way to get this into small facilities 
certainly would be through the Internet and on the Web. I mean 
we have developed a lot of protocols here, we have actually 
taken our patient information sheets on a number of agents and 
translated them into six languages. So I think we have got a 
lot of resources that we could share with other hospitals in 
the State.
    Mr. Bryant. OK. Mr. Kulesz, I have just a very short 
question.
    Mr. Kulesz. Sure.
    Mr. Bryant. Your equipment, in terms of its ability to 
detect biological or chemical agents--two questions. Does it 
work in water as well as in the air, and No. 2, now much does 
it cost with a government discount?
    Mr. Kulesz. The underlying instrument behind the chemical, 
biological mass spect is really designed originally for 
environmental purposes and it is certified through EPA to do 
air, water and soil and has those characteristics. And actually 
in the implementation, full deployment of SensorNet, we would 
look at all media because obviously that could be a problem.
    Cost-wise, as you mass produce these things--and the way 
this was designed from the start for Soldier Biological 
Chemical Command, we are designing a machine that can be mass 
produced and as the volume of production goes up, the cost goes 
down.
    Mr. Bryant. Thank you.
    Mr. Kulesz. Sure.
    Mr. Horn. Let me ask Ms. Hecker of the General Accounting 
Office if you have any thoughts on this, as you did with the 
first panel, and do you want to make a comment on that?
    Ms. Hecker. Thank you, Mr. Chairman. I would just add that 
I thought the framing that I tried to provide about the 
critical issues of the roles and the accountability and the 
issue of the tools and approaches of government really have 
played out in what you have heard. There are fundamental issues 
as you deliberate the proposals by the administration for the 
increase in homeland security funding about a tradeoff between 
flexibility and accountability. And I think you are hearing the 
dynamics of that, that on the one hand there is really a call, 
an active call for bringing the money directly to us, fewer 
strings, less tying of our hands on what we want to do. On the 
other hand, there are issues of what are we going to 
accomplish, what are the priorities, where are the greatest 
needs and what are the greatest risks. So there are really 
tradeoffs and the administration proposal has some interesting 
elements to it about how the money would be disbursed and we 
are happy to work with your committee, the Appropriations 
Committee on analyzing some of the tradeoffs of the block grant 
approach and some of the other tools and the tradeoffs of going 
through States or direct to communities, because we have some 
experience with different programs that have worked different 
ways.
    So I think some important issues have been played out and 
it was really a wonderful opportunity for the committee to have 
done this and brought this dialog so clearly out in the front. 
Thank you.
    Mr. Horn. And I will say to the panel do you have any 
additional thoughts after you have heard all this dialog, 
anything we have missed?
    [No response.]
    Mr. Horn. Well, good, it shows all my three questioners 
here have done a great job.
    I want to thank all of you for taking your time. I think 
this is very important and we are going to see around the 
country if Nashville should be the standard, why we will need 
to see who is the standard west of the Mississippi. [Laughter.]
    I want to thank the following staff that have been involved 
with this very fine hearing, and that is J. Russell George, 
staff director and chief counsel to the Subcommittee on 
Government Efficiency, Financial Management and 
Intergovernmental Relations. Mr. George is right behind me.
    Bonnie Heald had a lot to do with putting the pieces 
together for this hearing and she is the deputy staff director.
    And we have a new member of our staff, Justin Paulhamus, 
clerk.
    And from Atlanta came Bill Warren to be the court reporter 
and we are glad to have you here again.
    Then the following people from the Tennessee delegation and 
the Vanderbilt University: Caroline Nielson is the chief of 
staff to Congressman Bob Clement; and Helen Hardin, chief of 
staff to Congressman Zach Wamp. Paulina Madaris, scheduler to 
Congressman Zach Wamp, Polly Walker, Scheduler to Congressman 
Ed Bryant and Mel Bass, director of Federal affairs for 
Vanderbilt University in the Washington office. Colette Barrett 
of Vanderbilt here and Brian Smokler, Vanderbilt University 
also. It is a lovely place to have this hearing. I wish we had 
them all across the country, but Vanderbilt is a great 
university and we are glad to be here. And a lot of people have 
helped on this and I know a lot of your staffs have helped on 
this.
    So my colleague who is very eloquent wants a 30 second----
    Mr. Clement. That is all I ask for.
    I just want to thank the chairman again and his wonderful 
staff, Bonnie and Russell and Justin, and I want to thank my 
staff too. You mentioned Caroline Nielson but also Court 
Rolleson and Christie Ray, Bill Mason, Jason Spain and all of 
them for helping coordinate this. I want to thank the 
witnesses, this was most helpful and I assure you we will take 
it back to Washington, DC, and study it and evaluate it and try 
to do something with it.
    And thank you all in the audience today for being here. 
This is a most important hearing and as we mentioned earlier, 
this is the first of many that Chairman Horn will have over the 
country and I thank my colleagues again for being here and 
participating in such an active way.
    Mr. Horn. Thank you all and have a nice week.
    [Whereupon, the meeting was adjourned at 1:07 p.m.]

                                   - 

</pre></body></html>
